App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JOHN M. MARSHALL;
KAREN M. MARSHALL,
Transferees,
Petitioners-Appellants,

No. 17-72955
Tax Ct. No. 28782-11
MEMORANDUM*
(Filed Jul. 23, 2019)

v.
COMMISSIONER OF
INTERNAL REVENUE,
Respondent-Appellee.
MARSHALL ASSOCIATED,
LLC, Transferee,

No. 17-72958
Tax Ct. No. 28661-11

Petitioner-Appellant,
v.
COMMISSIONER OF
INTERNAL REVENUE,
Respondent-Appellee.

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

App. 2
ESTATE OF RICHARD L.
MARSHALL, DECEASED,
Patsy L. Marshall, Personal
Representative; PATSY L.
MARSHALL,

No. 17-72960
Tax Ct. No. 27241-11

Petitioners-Appellants,
v.
COMMISSIONER OF
INTERNAL REVENUE,
Respondent-Appellee.
Appeals from Decisions of the
United States Tax Court
Argued and Submitted July 11, 2019
Portland, Oregon
Before: TASHIMA, GRABER, and OWENS, Circuit
Judges.
Petitioners John, Karen, Richard, and Patsy Marshall (“the Marshalls”) and Marshall Associated, LLC
(“MA, LLC”) appeal from the Tax Court’s decisions on
their petitions challenging notices of transferee liability regarding unpaid taxes by Marshall Associated
Contractors, Inc. (“MAC”). We have jurisdiction under
26 U.S.C. § 7482. We review the Tax Court’s conclusions of law de novo and its factual findings for clear
error. Slone v. Comm’r, 810 F.3d 599, 604 (9th Cir.
2015) (Slone I). We affirm.
1. The Tax Court properly held that the Marshalls and MA, LLC are liable for MAC’s unpaid taxes

App. 3
under 26 U.S.C. § 6901 and the Oregon Uniform
Fraudulent Transfer Act (“OUFTA”). See id. at 604-05
(setting forth two-pronged Stern test).
For the state-law prong, the Tax Court properly
determined that, under OUFTA, the multiple steps in
the transaction through which the Marshalls sold their
MAC stock could be “collapsed” and deemed a “transfer” from MAC to the Marshalls if the Marshalls had
at least constructive knowledge that MAC’s taxes
would not be paid. See Or. Rev. Stat. §§ 95.200(12)
(defining “[t]ransfer” broadly as “every mode, direct or
indirect, absolute or conditional, voluntary or involuntary, of disposing of or parting with an asset or an interest in an asset”), 95.290 (providing that “the
principles of . . . equity” supplement OUFTA’s provisions), 95.300 (providing that OUFTA “shall be applied
and construed to effectuate its general purpose to
make uniform the law with respect to the subject of
[OUFTA] among states enacting it”); Slone v. Comm’r,
896 F.3d 1083, 1085-88 (9th Cir. 2018) (Slone II) (holding that a similar stock sale could be collapsed under
the comparable Arizona UFTA if the former shareholders had at least constructive knowledge of the taxavoidance purpose), cert. denied, 139 S. Ct. 1348 (2019);
Diamond Fruit Growers, Inc. v. Goe Co., 409 P.2d 909,
910 (Or. 1966) (holding that a court of equity may “look
through the form of the transaction to the substance”).
The Tax Court did not clearly err in finding that
the Marshalls had at least constructive knowledge
that MAC’s taxes would be unpaid following the stock
sale. See Mark v. State ex rel. Dep’t of Fish & Wildlife,

App. 4
84 P.3d 155, 163 (Or. Ct. App. 2004) (holding that, under Oregon law, “[c]onstructive knowledge exists when
a person is aware of ‘information as would lead a prudent man to believe that the fact existed, and that if
followed by inquiry must bring knowledge of the fact
home to him’ (citation omitted)); see also Slone II, 896
F.3d at 1087-88.
In addition, the “transfer” from MAC to the Marshalls and MA, LLC was constructively fraudulent under OUFTA because the federal tax claim arose before
the stock sale, MAC did not receive “a reasonably
equivalent value in exchange,” and MAC was left insolvent. Or. Rev. Stat. § 95.240(1).
For the federal-law prong, the Tax Court properly
determined, looking through the form of the MAC
stock sale to its substance, that it lacked any business
purpose other than tax avoidance and that the transaction lacked any economic substance other than the
creation of tax benefits. See Slone I, 810 F.3d at 605-06;
see also Slone II, 896 F.3d at 1086.
2. The Tax Court also properly determined the
amount owed by the Marshalls and MA, LLC. The Tax
Court did not clearly err in finding that the Marshalls
failed to show that MAC’s tax liability should be reduced by refreshing MAC’s expired net operating
losses. See Boyd Gaming Corp. v. Comm’r, 177 F.3d
1096, 1098 (9th Cir. 1999) (“The determination that a
taxpayer failed to produce sufficient evidence to support a deduction constitutes a factual finding subject

App. 5
to the ‘clearly erroneous’ standard of review.” (citation
omitted)).
Further, the Tax Court properly determined that,
under Oregon law, the Marshalls are liable for pre-notice interest. See Or. Rev. Stat. § 82.010(1)(a) (providing
that interest is payable on “[a]ll moneys after they become due”); Strawn v. Farmers Ins. Co. of Or., 297 P.3d
439, 458 (Or. 2013) (noting that the justification for interest under Or. Rev. Stat. § 82.010(1)(a) is that “[o]nce
due, the debtor has the use of money to which the
debtor is not entitled, while the delay in payment deprives the creditor of that use”).
Finally, the Tax Court did not improperly double
count the noncash assets as a transfer to both the Marshalls and MA, LLC because they are jointly and severally liable for MAC’s unpaid tax liabilities and the
noncash assets will be considered only once in collecting against the Marshalls and MA, LLC. See Or. Rev.
Stat. § 95.270(2) (generally limiting transferee liability
to “the value of the asset[s] transferred”).
AFFIRMED.

App. 6
UNITED STATES TAX COURT
ESTATE OF RICHARD L.
MARSHALL, DECEASED,
PATSY L. MARSHALL, PERSONAL REPRESENTATIVE,
and PATSY L. MARSHALL,
TRANSFEREES,

)
)
)
)
)
)
Docket No. 27241-11
)
Petitioners,
)
v.
)
COMMISSIONER OF INTER- )
NAL REVENUE,
)
Respondent.
)
DECISION
Pursuant to the opinion of the Court filed June 20,
2016, and the Court’s order dated June 28, 2017, and
incorporating herein the facts recited in respondent’s
computation as the findings of the Court, it is
ORDERED AND DECIDED: That the following
statement shows the liability due from petitioner Estate of Richard L. Marshall, Deceased, Patsy L. Marshall, Personal Representative, as transferee of First
Associated Contractors, Inc., f/k/a Marshall Associated
Contractors, Inc., transferor, for unpaid income tax and
additions to tax pursuant to I.R.C. § 6662(h), for the
taxable year ended March 31, 2003:

App. 7
Transferor’s Liability
Income Tax
Penalty (I.R.C. § 6662(h))
Transferor Interest
Total Transferor Liability

$ 15,482,046.00
$ 6,192,818.00
$ 10,684,703.00
$ 32,359,567.00

Transferee Estate of
Richard L. Marshall’s Liability
Transfers on March 7, 2003
Prejudgment Interest
Transferee Liability

$ 7,196,778.00
$ 1,463,337.00
$ 8,660,115.00

Plus interest, as provided by I.R.C. § 6601, will accrue on $7,196,778.00, the liability of the transferee
Estate of Richard L. Marshall, Deceased, Patsy L. Marshall, Personal Representative, not including the prejudgment interest of $1,463,337.00, from August 26,
2011 to the date such liability is paid.
ORDERED AND DECIDED: That the following
statement shows the liability due from petitioner
Patsy L. Marshall as transferee of First Associated
Contractors, Inc., f/k/a Marshall Associated Contractors, Inc., transferor, for unpaid income tax and additions to tax pursuant to I.R.C. § 6662(h), for the taxable
year ended March 31, 2003:
Transferor’s Liability
Income Tax
Penalty (I.R.C. § 6662(h))
Transferor Interest
Total Transferor Liability

$ 15,482,046.00
$ 6,192,818.00
$ 10,988,415.00
$ 32,663,279.00

App. 8
Transferee Patsy L. Marshall’s Liability
Transfers on March 7, 2003
Prejudgment Interest
Transferee Liability

$ 7,196,778.00
$ 1,492,606.00
$ 8,689,384.00

Plus interest, as provided by I.R.C. § 6601, will accrue on $7,196,778.00, the liability of the transferee
Patsy L. Marshall, not including the prejudgment interest of $1,492,606.00, from October 26, 2011 to the
date such liability is paid.
(Signed) Joseph Robert Goeke
Judge
Entered: AUG 1 2017
*

*

*

App. 9
UNITED STATES TAX COURT
JOHN M. MARSHALL and )
KAREN M. MARSHALL,
)
TRANSFEREES,
)
)
Petitioners,
) Docket No. 28782-11
v.
)
)
COMMISSIONER OF
)
INTERNAL REVENUE,
)
Respondent.
)
DECISION
Pursuant to the opinion of the Court filed June 20,
2016, and the Court’s order dated June 28, 2017, and
incorporating herein the facts recited in respondent’s
computation as the findings of the Court, it is
ORDERED AND DECIDED: That the following
statement shows the liability due from petitioner John
M. Marshall as transferee of First Associated Contractors, Inc., f/k/a Marshall Associated Contractors, Inc.,
transferor, for unpaid income tax and additions to tax
pursuant to I.R.C. § 6662(h), for the taxable year ended
March 31, 2003:
Transferor’s Liability
Income Tax
Penalty (I.R.C. § 6662(h))
Transferor Interest
Total Transferor Liability

$ 15,482,046.00
$ 6,192,818.00
$ 10,988,415.00
$ 32,663,279.00

App. 10
Transferee John M. Marshall’s Liability
Transfers on March 7, 2003
Prejudgment Interest
Transferee Liability

$ 7,196,778.00
$ 1,492,606.00
$ 8,689,384.00

Plus interest, as provided by I.R.C. § 6601, will accrue on $7,196,778.00, the liability of the transferee
John M. Marshall, not including the prejudgment interest of $1,492,606.00, from October 26, 2011 to the
date such liability is paid.
ORDERED AND DECIDED: That the following
statement shows the liability due from petitioner Karen M. Marshall as transferee of First Associated Contractors, Inc., f/k/a Marshall Associated Contractors,
Inc., transferor, for unpaid income tax and additions to
tax pursuant to I.R.C. § 6662(h), for the taxable year
ended March 31, 2003:
Transferor’s Liability
Income Tax
Penalty (I.R.C. § 6662(h))
Transferor Interest
Total Transferor Liability

$ 15,482,046.00
$ 6,192,818.00
$ 10,988,415.00
$ 32,663,279.00

Transferee Karen M. Marshall’s Liability
Transfers on March 7, 2003
Prejudgment Interest
Transferee Liability

$ 7,196,778.00
$ 1,492,606.00
$ 8,689,384.00

Plus interest, as provided by I.R.C. § 6601, will accrue on $7,196,778.00, the liability of the transferee
Karen M. Marshall, not including the prejudgment

App. 11
interest of $1,492,606.00, from October 26, 2011 to the
date such liability is paid.
(Signed) Joseph Robert Goeke
Judge
Entered: AUG 1 2017
*

*

*

App. 12
UNITED STATES TAX COURT
MARSHALL ASSOCIATED, )
LLC, TRANSFEREE,
)
)
Petitioner,
)
v.
)
)
COMMISSIONER OF
)
INTERNAL REVENUE,
)
Respondent.
)
)

Docket No. 28661-11

DECISION
Pursuant to the opinion of the Court filed June 20,
2016, and the Court’s order dated June 28, 2017, and
incorporating herein the facts recited in respondent’s
computation as the findings of the Court, it is
ORDERED AND DECIDED: That the following
statement shows the liability due from petitioner Marshall Associated, LLC as transferee of First Associated
Contractors, Inc., f/k/a Marshall Associated Contractors, Inc., transferor, for unpaid income tax and additions to tax pursuant to I.R.C. § 6662(h), for the taxable
year ended March 31, 2003:
Transferor’s Liability
Income Tax
Penalty (I.R.C. § 6662(h))
Transferor Interest
Total Transferor Liability

$ 15,482,046.00
$ 6,192,818.00
$ 10,988,415.00
$ 32,663,279.00

App. 13
Transferee Marshall Associated, LLC’s Liability
Transfers on March 7, 2003
Prejudgment Interest
Transferee Liability

$ 6,766,500.00
$
0.00
$ 6,766,500.00

Plus interest, as provided by I.R.C. § 6601, will accrue on $6,766,500.00, the liability of the transferee
Marshall Associated, LLC, from October 26, 2011 to
the date such liability is paid.
(Signed) Joseph Robert Goeke
Judge
Entered: AUG 1 2017
*

*

*

App. 14
UNITED STATES TAX COURT
WASHINGTON, DC 20217
ESTATE OF RICHARD L. )
MARSHALL, DECEASED, )
PATSY L. MARSHALL,
)
PERSONAL REPRESENTA- )
TIVE, AND PATSY L.
)
MARSHALL, TRANSFER- )
EES, ET AL.,
)
)
Petitioner(s),
)
v.
)
)
COMMISSIONER OF
)
INTERNAL REVENUE,
)
Respondent
)

Docket No. 27241-11,
28661-11,
28782-11.

ORDER
This Court issued an opinion in this case, Estate
of Marshall v. Commissioner, T.C. Memo. 2016-119, on
June 20, 2016 holding petitioners liable as transferees
for First Associated Contractors, Inc., f/k/a Marshall
Associated Contractors, Inc.’s (MAC) unpaid tax liabilities for its fiscal year ending (FYE) March 31, 2003.
On September 14, 2016, respondent filed a Computation for Entry of Decision and on December 16,
2016, petitioners filed a Computation for Entry of
Decision. On February 3, 2017, petitioners filed a Memorandum in Support of Petitioners’ Rule 155 Computations and respondent filed a Notice of Objection to
petitioners’ Computation for Entry of Decision. On

App. 15
March 3, 2017, respondent filed a Reply to Memorandum in Support of Petitioners’ Rule 155 Computations
and petitioners filed a Reply to Notice of Objection to
Computation for Entry of Decision and a Revised Computation. On April 24, 2017, respondent filed a Response to Revised Computation and on May 23, 2017,
petitioners filed a Reply to Response to Revised Computation.
The parties’ computations reflect agreement on
the following:
(a) MAC’s liability for its FYE March 31, 2003
consists of $15,482,046 in income tax, $6,192,818 in
section 6662(h)1 penalty, and interest pursuant to section 6601 from the date MAC’s FYE March 31, 2003
return was due until the day before each notice of liability was issued to petitioners.2
(b) The net total value of assets transferred on
March 7, 2003 was $28,787,114, computed as follows:
1

All section references are to the Internal Revenue Code in
effect for the year in issue, and all Rule references are to the Tax
Court Rules of Practice and Procedure, unless otherwise indicated.
2
The amount of sec. 6601 interest included in MAC’s liability
for FYE March 31, 2003 is $10,988,415 with respect to transferees
Patsy L. Marshall, John M. Marshall, Karen M. Marshall, and
MA LLC, which accrued from June 15, 2003, the due date of
MAC’s return, to October 25, 2011, the day before the issuance of
their respective notices of liability. Petitioners’ computations reflect an identical interest calculation for the Estate of Richard L.
Marshall (Richard), however, a notice of liability was issued to
Richard on August 26, 2011. As such, the amount of MAC’s sec.
6601 interest with respect to Richard is $10,684,703.

App. 16
$24,410,000 cash, plus $6,766,500 of noncash tangible
assets, plus $2,544,480 of future litigation proceeds,
less $4,933,866 of assumed liabilities.
(c) John M. Marshall, Karen M. Marshall, Estate
of Richard L. Marshall, and Patsy L. Marshall (Marshalls) were each allocated 25% of the net total value
of assets transferred, or $7,196,778 each.
(d) MAC transferred net total
$6,766,500 to MA LLC on March 7, 2003.

assets

of

(e) Each petitioner is liable for post-notice interest pursuant to section 6601 starting on the date each
respective notice of liability was issued.
The parties disagree, however, on the following issues:
(a) whether petitioners are liable for prenotice
interest; and
(b) whether petitioners are entitled to reductions
in judgment based on Or. Rev. Stat. sec. 95.270(3), the
doctrine of equitable recoupment, or other offsets.
First, petitioners are liable for prenotice interest
to the extent explained herein. Interest in transferee
liability cases is calculated in accordance with two separate periods—prenotice and postnotice—and, under
some circumstances, two separate rates. See generally
Estate of Stein v. Commissioner, 37 T.C. 945 (1962). The
prenotice period is “measured from a point of time that
would not be earlier than the date of transfer” up to
(but not including) the notice of liability issue date.

App. 17
Lowy v. Commissioner, 35 T.C. 393, 395 (1960). Most
State laws, including Oregon, refer to the interest that
may accrue during the prenotice period as “prejudgment interest.” As such, we will use the term “prejudgment interest” to refer to interest that may accrue
under Oregon State law during the prenotice period.
Pursuant to the Oregon Uniform Fraudulent
Transfer Act a transferee is liable for the debt of the
transferor up to the amount of the transfer. Or. Rev.
Stat. sec. 95.270(2). If the transferee received assets in
excess of the transferor’s liability (consisting of the
transferor’s tax, penalties, and interest through the
day before the day the transferee’s notice of liability
was issued), then the transferee is liable for the full
amount of the transferor’s liability. Schussel v. Werfel,
758 F.3d 82, 88-89 (1st Cir. 2014). If the transferee received assets less than the transferor’s liability, then
the transferee is liable for the full amount of the assets
transferred and may also be liable for prejudgment interest under State law. Id. at 91.
Because petitioners, as transferees, received assets worth less than MAC’S total liability, Oregon law
must determine the extent to which petitioners are liable for prejudgment interest. Under Oregon law, interest generally “cannot be awarded in the absence of
either a contract or a statutory provision authorizing
it.” Strawn v. Farmers Ins. Co. of Oregon, 353 Or. 210,
239 (2013) (citing Dowling v. Albany Planing Mill, 238
Or. 425, 431 (1964). The statutory authority for an
award of interest is Or. Rev. Stat. sec. 82.010, and provides, in relevant part:

App. 18
(1) The rate of interest for the following
transactions, if the parties have not otherwise
agreed to a rate of interest, is nine percent per
annum and is payable on:
(a) All moneys after they become due;
but open accounts bear interest from the
date of the last item thereof.
Most claims for prejudgment interest in Oregon
arise under Or. Rev. Stat. sec. 82.010 when the person
from whom prejudgment interest is sought has
breached a duty to pay money (subsection (1)(a)) or has
wrongfully failed to return money to the person to
whom it belongs (subsection (1)(b)). Strawn v. Farmers
Ins. Co. of Oregon, 353 Or. at 240 (citing McDowell
Welding & Pipefitting v. United States Gypsum Co.,
345 Or. 272, 288-289 (2008)). The justification for Oregon’s prejudgment interest provision is that “[o]nce
due, the debtor has the use of money to which the
debtor is not entitled, while the delay in payment deprives the creditor of that use.” Id. at 241.
Under Oregon law, the question of whether a court
may order prejudgment interest usually depends upon
whether the amount due and the time from which interest must run are readily ascertainable. Id. (citing
Public Market Co. v. Portland, 171 Or. 522, 625 (1943)
(interpreting a predecessor statute to Or. Rev. Stat. sec.
82.020(1)(a))); see also Farhang v. Karirninaser, 230 Or.
App. 554, 556 (2009); Strader v. Grange Mutual Ins.
Co., 179 Or. App. 329, 338 (2002). Petitioners are liable
for prejudgment interest to the extent explained
herein because the amount due and the date on which

App. 19
the duty to pay that amount are readily ascertainable,
and petitioners had use of money to which the Commissioner was entitled.
Money becomes due for purposes of Or. Rev. Stat.
sec. 82.010(1)(a) when a legal obligation to pay arises.
United Farm Agency v. McFarland, 243 Or. 124, 133134 (1966). MAC was legally obligated to pay its Federal income taxes for FYE March 31, 2003 on June 15,
2003. MAC’s tax liability for FYE March 31, 2003 became due for purposes of Or. Rev. Stat. sec. 82.010(a)(1)
on June 15, 2003. As evidenced by the record, the Marshalls were aware of, and actively sought to avoid paying, MAC’s tax liability for FYE March 31, 2003, due
June 15, 2003.
An amount due is considered readily ascertainable
if the exact pecuniary amount is ascertained or ascertainable by simple computation. Public Market Co. v.
City of Portland, 171 Or. 522, 624 (1943). The fact that
amounts owed cannot be ascertained without resolving
complex issues of fact does not bar a determination
that sums certain at a date certain were owed. Precision Seed Cleaners v. Country Mutual Ins. Co., 976
F. Supp. 2d 1228, 1257 (2013).
Petitioners argue that it would have been virtually
impossible to predict their liability as transferees. The
record, however, indicates otherwise. MAC’s pro fauna
Form 1120 attached to the stock purchase agreement
listed MAC’s Federal income tax liability as
$13,225,942 for FYE March 31, 2003. The State and
Federal tax liabilities reflected on the pro forma Form

App. 20
1120 were used to negotiate the premium that the
Marshalls were paid over MAC’s net asset value. The
Marshalls were paid 60% of MAC’s tax liability as a
premium over MAC’s net asset value. As such, the Marshalls were aware that they had use of at least 60% of
$13,225,942, or $7,935,565, to which they were not entitled once MAC’s tax liability was due.
Petitioners are liable for prejudgment interest on
$7,935,565 at a rate of 9% pursuant to Or. Rev. Stat.
sec. 82.010(1)(a) from the June 15, 2003 due date of
MAC’s return until the day before the issuance of their
respective notices of liability.
Second, petitioners are not entitled to reductions
in judgment based on Or. Rev. Stat. sec. 95.270(3), the
doctrine of equitable recoupment, or any other offsets.
In Estate of Marshall, we determined that petitioners
were not entitled to any offsets, adjustments, or other
reductions to the amount of their transferee liability
under Or. Rev. Stat. sec. 95.270(5) because they had at
least constructive knowledge that MAC’s tax liability
would not be paid. Petitioners are now attempting to
reduce their transferee liability by making the same
arguments under Or. Rev. Stat. sec. 95.270(3) and the
doctrine of equitable recoupment in their Rule 155
computations that they presented in their briefs. We
declined to entertain these arguments in our opinion,
so we will briefly address why they are inapplicable below.
Petitioners are not entitled to a reduction in judgment based on Or. Rev. Stat. sec. 95.270(3). Or. Rev.

App. 21
Stat. sec. 95.270(3) states “[i]f the judgment under subsection (2) of this section is based upon the value of the
asset transferred, the judgment must be for an amount
equal to the value of the asset at the time of the transfer, subject to adjustment as the equities may require.”
[Emphasis added.].
Petitioners contend that the equities favor them,
thereby requiring an effective elimination of transferee liability. The equities, however, do not favor petitioners. In Estate of Marshall, we determined that
petitioners: (i) engaged in the March 7, 2003 transaction solely to evade MAC’s tax liability; (ii) had at least
constructive knowledge that MAC’s tax liability would
not be paid; (iii) were explicitly warned about transferee liability; and (iv) agreed to receive 60% of MAC’s
avoided tax liability as a premium over MAC’s net asset value.
MAC transferred $24,410,000 cash, $6,766,500 of
noncash tangible assets, and $2,544,480 of future litigation proceeds to the Marshalls. Petitioners are not
entitled to any equitable adjustments under Or. Rev.
Stat. sec. 95.270(3) to the $24,210,000 cash or
$2,544,480 in future litigation proceeds because cash
is not subject to equitable adjustments. See Estate of
Hurst v. Jones, 230 N.C. App. 162, 178 (2013) (addressing N.C. Gen. Stat. sec. 39-23.8(c), which is identical to
Or. Rev. Stat. sec. 95.270(3) and UFTA sec. 8(c)).
Petitioners are not entitled to any equitable adjustments to the noncash tangible assets under Or.
Rev. Stat. sec. 95.270(3). Uniform Fraudulent Transfer

App. 22
Act (UFTA) sec. 8(c) is identical to Or. Rev. Stat. sec.
95.270(3). Comment (3) to UFTA sec. 8(c) states:
if the value of the asset at the time of levy and
sale to enforce the judgment of the creditor
has been enhanced by improvements of the
asset transferred * * * , a good faith transferee
should be reimbursed for the outlay for such
purpose to the extent the sale proceeds were
increased thereby * * * .
Petitioners have not presented any evidence of the improvements contemplated in UFTA sec. 8(c) to the noncash tangible assets and have not satisfied any good
faith requirement. For the same reason, Or. Rev. Stat.
sec. 95.270(3) does not apply to any adjustment sought
by petitioners listed below.
Petitioners are not entitled to a reduction in judgment based on the doctrine of equitable recoupment.
“A basic requirement for equitable relief has always
been the inadequacy of the remedy at law.” Estate of
Stein v. Commissioner, 37 T.C. 945, 957 (1962). Section
1341 is the appropriate remedy for taxpayers that are
found liable as transferees and that have paid taxes on
the transaction or transfer from which their transferee
liability arose. Kardash v. Commissioner, T.C. Memo.
2015-197, slip. op. at * 11 (citing Delpit v. Commissioner, T.C. Memo. 1992-297; Maynard Hosp., Inc. v.
Commissioner, 54 T.C. 1675 (1970)).
As such, petitioners are not entitled to equitably
recoup or use as an offset any Federal or State income
taxes paid by the Marshalls on the long-term capital

App. 23
gain that they reported for the partial redemption and
sale of MAC’s stock on March 7, 2003. Their remedy is
section 1341. Likewise, petitioners are not entitled to
an adjustment or credit for interest associated with the
taxes paid.
Petitioners are not entitled to equitably recoup or
use as an offset any of MAC’s purported income tax attributes for FYE March 31, 2003, including “projected
tax savings from the duplicative interest income assessment made by respondent” and “transferor’s unused federal tax benefits and state taxes paid by
transferor.” Petitioners contend that certain income
tax attributes purportedly available to MAC, but not
allowed in the notice of deficiency or in our opinion,
should offset their respective transferee liabilities. In
Estate of Marshall, we determined that the adjustments in MAC’s notice of deficiency were correct, and
we decline petitioners’ invitation to reconsider this decision. Rule 155 proceedings are limited to purely computational items that must be consistent with the
findings and conclusions of our opinion. Rule 155(b).
Petitioners are not entitled to an adjustment for
“professional fees paid.” Petitioners contend that they
are entitled to an adjustment on the basis of assuming
“MAC’s obligation to pay legal fees associated with the
ongoing U.S. Bureau of Reclamation litigation and the
UBOC litigation”. We accounted for future litigation
costs in our valuation of the future Bureau of Reclamation (BOR) litigation proceeds that the Marshalls received in the March 7, 2003 transaction. The time to
present additional evidence and advance arguments

App. 24
on this issue was during trial and in brief. Rule 155(c);
Molasky v. Commissioner, 91 T.C. 683, 685 (1988), aff ’d
on this issue 897 F.22 334 (8th Cir. 1990). Petitioners
have not substantiated any professional fees beyond
what MAC was awarded in the Stillwater Equal Access
to Justice Act appeal.
Petitioners are not entitled to an adjustment or
credit for “a discount for the time value of money.” Petitioners contend that a discount for the time value of
money should have been applied to the future BOR litigation proceeds. The time to present evidence and advance arguments regarding this issue was during the
trials of these consolidated cases and in their briefs.
Rule 155(c); Molasky v. Commissioner, 91 T.C. at 685. A
Rule 155 proceeding is not the proper place to raise
this new issue.
Petitioners do not qualify for an offset based on the
net asset value of their MAC shares. The net asset
value of the Marshalls’ shares is relevant to the constructive fraud analysis, specifically to the determination of whether they received a reasonably equivalent
value of assets in exchange for their shares. We determined that because MAC did not receive reasonably
equivalent value and was rendered insolvent as a result of the March 7, 2003 transaction, the transfers to
petitioners were constructively fraudulent under Or.
Rev. Stat. sec. 95.240(1). Or. Rev. Stat. sec. 95.270(5)
provides a “good-faith transferee” with a reduction of
their liability to the “extent of the value given the
debtor for the transfer.” In Estate of Marshall we determined, inter alia, that petitioners could not “claim

App. 25
the good-faith defense” because they had at least constructive knowledge that MAC’S tax liability would not
be paid.
For the reasons stated here and in our opinion it
is
ORDERED that the parties are directed on or before July 28, 2017, to file with the Court their revised
computations for entry of decision in conformity with
this analysis as explained hereinbefore.
(Signed) Joseph Robert Goeke
Judge
Dated: Washington, D.C.
June 28, 2017

App. 26
T.C. Memo. 2016-119
UNITED STATES TAX COURT
ESTATE OF RICHARD L. MARSHALL, DECEASED,
PATSY L. MARSHALL, PERSONAL
REPRESENTATIVE, AND PATSY L. MARSHALL,
TRANSFEREES, ET AL.1 Petitioners v. COMMISSIONER
OF INTERNAL REVENUE, Respondent
Docket Nos. 27241-11,
Filed June 20, 2016.
28661-11, 28782-11.
Robert J. Chicoine, Christopher R. Chicoine, and
David B. Bukey, for petitioners.
Melanie E. Senick, William D. Richard, Patsy A.
Clarke, and Gregory Michael Hahn, for respondent.
MEMORANDUM FINDINGS
OF FACT AND OPINION
GOEKE, Judge: In these three consolidated transferee liability cases the Government seeks to collect
from petitioners, as transferees, Federal income tax
of $15,482,046 and a penalty of $6,192,818 assessed
against First Associated Contractors, Inc., formerly known
as Marshall Associated Contractors, Inc. (MAC), for its
fiscal year ending (FYE) March 31, 2003.2 On March 7,
2003, MAC entered into a complex set of agreements
1

Cases of the following petitioners are consolidated herewith: Marshall Associated, LLC, Transferee, docket No. 28661-11;
and John M. Marshall and Karen M. Marshall, Transferees,
docket No. 28782-11.
2
All dollar amounts are rounded to the nearest dollar.

App. 27
which resulted in all or substantially all of its assets’
being transferred to Richard Marshall (Richard), Patsy
Marshall (Patsy), John Marshall (John), and Karen
Marshall (Karen) (collectively Marshalls) and Marshall Associated, LLC (MA LLC), an Oregon limited liability company wholly owned by the Marshalls (MAC
transaction).
The issue for decision is whether petitioners are
liable as transferees under section 6901 for MAC’s
unpaid Federal income tax liability, penalty, and interest.3 For the reasons stated herein, we find that petitioners are liable.
FINDINGS OF FACT
The Marshalls were residents of Oregon at the
time they filed petitions, and MA LLC’s principal place
of business was in Oregon at all relevant times. Richard, Patsy, John, and Karen each owned 25% of MAC.
MAC was incorporated in 1965 under the laws of the
State of Oregon as a C corporation, where it also had
its principal place of business. John and Richard were
brothers. Richard and Patsy were married, as were
John and Karen, for all relevant periods. Richard Marshall died on October 29, 2013.
Beginning in 1965 MAC operated as a construction contractor specializing in heavy construction,
3

Unless otherwise indicated, all section references are to the
Internal Revenue Code in effect for the year in issue, and all Rule
references are to the Tax Court Rules of Practice and Procedure.

App. 28
including sewer and water pipe installation. Richard
was responsible for MAC’s business operations. His duties included managing MAC’s finances and doing
most of MAC’s bidding on construction projects. John
was responsible for MAC’s field operations. His duties
included assembling crews for MAC’s construction projects and overseeing the construction worksites.
U.S. Bureau of Reclamation Work and Subsequent
Litigation
In 1982 MAC entered into a contract with the U.S.
Bureau of Reclamation (US BOR) to supply approximately 1,061,400 cubic yards of sand and coarse aggregate for the construction of the Upper Stillwater Dam
in central Utah (Stillwater project), which MAC completed. Construction of the dam was to begin in 1983.
In or about 1983 MAC entered into a contract with the
US BOR to build a two-lane road in the mountains
near Thistle, Utah (Sheep Creek project). In 1984 Union Bank of California (UBOC) lent $2 million to MAC
for the Stillwater project. Richard and John personally
guaranteed the UBOC loan to MAC.
A contract dispute arose regarding the Stillwater
project and the contract was terminated. MAC filed a
claim for equitable adjustment, which was denied, and
subsequently appealed in 1984 (Stillwater appeal).
Another contract dispute arose regarding the Sheep
Creek project, and MAC subsequently filed a claim for
additional compensation in 1984 following completion
of the project. This claim was also denied, and MAC

App. 29
appealed (Sheep Creek appeal). The Marshalls and US
BOR agreed to resolve the Stillwater appeal before addressing the Sheep Creek appeal.
In 1999 Richard suffered a stroke that left him
with hemiparalysis, difficulty moving one side of his
body; and expressive aphasia, difficulty expressing himself using spoken language. After his stroke Richard
was unable to speak, but “his memory and understanding [were] good.” Dr. Ellen Mayock, Richard’s treating
physician, does not know what Richard understood or
did not understand because he was unable to tell her
what he could understand. Richard relied on his family
and on his legal advisers with respect to the MAC transaction. Richard’s answer to the question of whether he
wanted to sell his MAC stock would reflect his intention to sell. John represented to third parties that after
the stroke Richard “could not communicate very well
but could understand what was going on.”
After Richard’s stroke, John took over Richard’s responsibilities at MAC, including maintenance of MAC’s
books and records. MAC wound down its contracting
business and had not contracted on any construction
jobs since 2000. MAC shifted its primary focus to the
pursuit of the Stillwater appeal. MAC’s only business
activity after 2000 was the rental of its heavy equipment and its land.
On March 22, 2002, the Department of the Interior
Board of Contract Appeals ruled in favor of MAC in the
Stillwater appeal. On May 16, 2002, MAC received a
$40,033,130 litigation award from US BOR, which

App. 30
represented contract damages and interest for the
Stillwater appeal (Stillwater litigation award). On August 2 and October 9, 2002, MAC received additional
interest payments on the Stillwater litigation award of
$265,743 and $556,005, respectively. The total amount
of MAC’s Stillwater litigation award, with interest,
was $40,854,878, all of which MAC received during its
FYE March 31, 2003.
Following receipt of the Stillwater litigation award,
MAC made estimated tax payments of $889,990 to the
State of Oregon and $3,825,000 to the Internal Revenue Service (IRS) for its FYE March 31, 2003.
MAC and the Marshalls’ Search for a Solution to the
Tax Problem
In anticipation of MAC’s receipt of the Stillwater
litigation award, John sought help from John Dempsey
and Michael Weber at PricewaterhouseCoopers (PwC).
Mr. Dempsey was a senior manager at PwC in Portland, Oregon, and Mr. Weber was one of the partners
that oversaw Mr. Dempsey.
Mr. Dempsey and Mr. Weber oversaw the preparation of the Marshalls’ personal income tax returns, including those for taxable year 2003, and Mr. Weber
signed them as the preparer. In anticipation of the
Stillwater litigation award, John asked PwC to find out
what liability MAC and the Marshalls would incur and
whether there were any strategies that could help the
Marshalls shelter some of the gain from the Stillwater
litigation award.

App. 31
Through consultations with PwC, the Marshalls
considered a liquidation of MAC, an S corporation election for MAC, refreshing MAC’s expired net operating
losses (NOLs), and a sale of their MAC stock in 2002.
The Marshalls decided not to pursue any of the tax
planning options that Mr. Dempsey and Mr. Weber recommended because John Marshall was uncomfortable
with PwC’s recommendations.
Peachtree Financial
John’s insurance agent, Kenneth Evanson, introduced the Marshalls to Peachtree Financial. Peachtree
Financial proposed to purchase the Marshalls’ MAC
stock in an installment sale. The Marshalls evaluated
and rejected Peachtree Financial’s proposal to purchase their MAC stock because they would lose control
over their money.
Through Peachtree Financial, John was introduced
to Fortrend International, Inc. (Fortrend). Peachtree
Financial received a $306,000 referral fee for introducing John to Fortrend. Initially, John communicated and
negotiated directly with representatives of Fortrend
and represented the other MAC shareholders in his
communications with Fortrend.
Fortrend
In a letter to John dated October 15, 2002, Steve
Irgang of Fortrend represented that Fortrend “specializes in structuring transactions to solve specific

App. 32
corporate tax problems.” A Fortrend promotional brochure that Mr. Irgang transmitted to John represented
that “[c]lients of Fortrend have benefitted from our
ability to structure transactions that minimize shareholder and corporate liabilities.” On October 22, 2002,
John had a telephone conference with Mr. Irgang,
Jeffrey Furman of Fortrend, Howard Kramer of Fortrend, Michael Bittner, a return preparer for Fortrend,
Charles Klink, a lawyer representing Fortrend, and
Mr. Dempsey.
On October 28, 2002, Alice Dill of Fortrend sent
John, as representative of the MAC shareholders, a letter of intent to purchase the Marshalls’ MAC stock.
The letter of intent was from Essex Solutions, Inc. (Essex), signed by its president, Richard Leslie. On January 31, 2003, the shareholders of Essex were Willow
Investment Trust (Willow) and MidCoast Credit Corp.
(MidCoast). As of April 10, 2003, Essex was wholly
owned by Willow. The Essex letter of intent reflected
that $4,700,000 of the purchase price would consist of
a promissory note “secured by tax refunds”.
John reviewed and marked up the Essex letter of
intent. On November 8, 2002, Randy Bae of Fortrend
sent an email to John regarding “acquisition of Marshall Associated Contractors, Inc.” with an attachment
“illustrating the buyer’s calculation of the stock purchase price.” As proposed, the stock purchase price
would be determined by taking the net value of the
company after taxes and adding 50% of MAC’s tax liability, resulting in an amount greater than the net asset value of the company. John himself calculated a

App. 33
“scenario sale” purchase price and the split of MAC’s
tax liability between the Marshalls and Essex. John
mulled over the Essex letter of intent for several weeks
before deciding that he wanted the Marshalls to sell
their MAC stock.
The Marshalls’ Search for Advice
The Marshalls engaged PwC and the law firm of
Schwabe Williamson & Wyatt (Schwabe) to advise
them in connection with the Essex letter of intent.
John interacted with Schwabe and PwC on behalf of
Richard, Patsy, and Karen.
In late October 2002 John brought the Essex letter
of intent to Mr. Dempsey and Mr. Weber of PwC. Both
Mr. Dempsey and Mr. Weber had significant tax experience. Mr. Dempsey prepared a spreadsheet comparing the net cash after taxes that the Marshalls would
receive in a liquidation of MAC versus a stock sale pursuant to the terms of the Essex letter of intent. Mr.
Dempsey concluded that the Marshalls would receive
approximately $6,800,000 more in net proceeds if they
sold their MAC stock than if they liquidated MAC.
At the time that the Marshalls received the Essex
letter of intent, MAC’s assets consisted of: (i) an office
and construction shop on 11 acres of land and heavy
machinery and equipment, with a combined value of
$2,776,500; (ii) an interest in Pearl Condo, LLC, valued
at $4 million; (iii) $34,500,000 in cash; (iv) the Stillwater Equal Access to Justice claim for attorney’s
fees (Stillwater EAJA claim) and the Sheep Creek

App. 34
appeal with projected future proceeds of $2,897,500;
(v) $3,825,000 in prepaid Federal tax; and (vi) $889,990
in prepaid Oregon State taxes. MAC’s liabilities consisted of: (i) $4,433,866 to UBOC (UBOC liability);
(ii) $500,000 to Mr. Jochim (Jochim liability); and
(iii) Federal and State taxes for its FYE March 31,
2003, due on the Stillwater litigation award.
Schwabe
In late November 2002 John took the Essex letter
of intent to Schwabe. Schwabe had been the Marshalls’
long-time legal advisers. They represented the Marshalls in the MAC transaction in their capacity as
shareholders but did not represent MAC in the MAC
transaction. The Marshalls relied on Schwabe to advise and represent them in the MAC transaction.
Mitchell Hornecker was a business lawyer and the lead
attorney at Schwabe representing the Marshalls with
respect to the MAC transaction. Also involved in the
MAC transaction for Schwabe were Kevin Kerstiens,
Craig Russillo, Alan Pasternack, and Deric Luoto. John
met with Mr. Hornecker on November 20, 2002, to discuss the Essex letter of intent. At the November 20,
2002, meeting, John told Mr. Hornecker that the purchase price was the value of the stock plus half of
MAC’s tax liability and that Essex was splitting the
tax benefit with the Marshalls. John was planning on
developing MAC’s 11 acres of land. He also intended to
stay in the construction business and was considering
starting a new construction company. John informed
Mr. Hornecker that the Marshalls wanted to keep

App. 35
MAC’s 11 acres of land, MAC’s interest in Pearl Condo,
LLC, MAC’s heavy machinery and equipment, and control over the remaining US BOR litigation.
Essex proposed to use the cash in MAC’s bank account to pay the purchase price for the MAC stock to
the Marshalls. This caused Schwabe some concern. Mr.
Hornecker was concerned that MAC could be pulled
into bankruptcy if Essex used MAC’s cash to pay the
purchase price to the Marshalls. Mr. Russillo stated
to Mr. Hornecker and Mr. Kerstiens on November 24,
2002, that “there is the possibility that the proposed
stock sale can be attacked by the [bankruptcy] trustee
as a fraudulent transaction under 11 USC 548” and
concluded that “[i]f Essex is paying FMV for the stock,
and has no intent to defraud any of its creditors, I think
we’re ok.”
Mr. Kramer of Fortrend provided two references to
Mr. Hornecker. The “nuts and bolts” of Schwabe’s due
diligence was done by Schwabe associates and Mr.
Luoto, so Mr. Hornecker did not contact the references.
Schwabe only conducted database and Internet research on Essex and Fortrend. Despite the “sketchy
information” that Schwabe uncovered about related
Fortrend entities’ tax noncompliance, Schwabe did not
inquire about Fortrend’s past deals. They also researched transferee liability and communicated to the
Marshalls that if Essex took steps to render MAC unable to pay its tax liability, the IRS could pursue transferee liability against the Marshalls.

App. 36
Schwabe had concerns regarding whether the buyer
was going to defraud creditors and carefully structured
the transaction to try to avoid any potential problems
with that. Because of Schwabe’s concern about transferee liability, Mr. Pasternack was asked to research
the issue and prepare a memorandum. After extensive
research, Mr. Pasternack concluded in his “Transferee
Liability” memorandum that “the selling Marshall
shareholders would likely be considered transferees of
* * * [MAC’s] property” with respect to the partial redemption and that “if Essex took steps that rendered
* * * [MAC] unable to pay tax liabilities existing at the
time of the redemption and the stock sale, there could
be a basis for the IRS to seek to impose transferee liability on the selling shareholders” with respect to the
stock sale. Mr. Hornecker discussed the risk of transferee liability with the Marshalls after Mr. Hornecker
reviewed Mr. Pasternack’s “Transferee Liability” memorandum and before the MAC transaction closed.
The Marshalls decided to sell their MAC stock in
the MAC transaction under the negotiated terms despite being advised of the risks of the MAC transaction
by Schwabe. Mr. Hornecker provided the Marshalls
with a followup letter dated April 24, 2003, which was
after the MAC transaction closed. It did not contain
any legal analysis and was intended “to remind [the
Marshalls] of a few of the more significant issues arising from these transactions.”

App. 37
PricewaterhouseCoopers
After gathering information and conducting an
analysis of the stock sale proposed by the Essex letter
of intent, Mr. Dempsey became concerned about Fortrend’s plan to offset MAC’s income with its losses
because it was similar to a listed transaction. Mr.
Dempsey discussed his concerns about the proposed
stock sale with Mr. Weber, who expressed similar concerns. Mr. Weber thought the MAC transaction seemed
inconsistent with other transactions in which he had
been involved. Mr. Weber was concerned because Fortrend had used transactions like the proposed stock
sale in the past to shelter income and avoid taxes. Mr.
Weber and Mr. Dempsey contacted PwC’s national office to obtain advice.
Dan Mendelson was a national partner in PwC’s
tax quality and risk management (QRM) group in 2002
and 2003. He assessed transactions that other PwC
personnel were uncomfortable with or were concerned
could be listed transactions to determine whether PwC
could remain involved. PwC’s QRM group assessed
PwC’s compliance with IRS regulations to reduce the
risk of noncompliance and penalties’ being imposed on
PwC and PwC employees, among other things. Mr.
Mendelson advised Mr. Dempsey and Mr. Weber that
PwC should not consult or advise on the proposed stock
sale. PwC concluded that the stock sale proposed by
Essex was similar to a listed transaction and that it
could not consult or advise on the proposed stock sale
any further.

App. 38
When Mr. Weber and Mr. Dempsey spoke with
John about their concerns regarding the proposed
stock sale, they were “trying to convey absolute concern over the transaction and the chances that it could
be challenged by the IRS” to John. Mr. Dempsey and
Mr. Weber told John before March 7, 2003, that the proposed stock sale was similar to a listed transaction,
explained to John what a listed transaction was, and
tried to discourage John from entering into the proposed stock sale. After advising John not to do the
proposed stock sale, Mr. Weber thought that John
understood the risks, including the risks associated
with losing control over MAC. John’s response to
Mr. Weber’s and Mr. Dempsey’s warnings about the
proposed stock sale was silence. After the MAC transaction closed on March 7, 2003, but before the Marshalls’ personal returns were filed in October 2004, Mr.
Weber and Mr. Dempsey informed John that the MAC
transaction was similar to a listed transaction and
would need to be disclosed on petitioners’ returns.
Mr. Dempsey informed John in person that PwC could
not consult or advise on the proposed stock sale, which
meant PwC could not be involved in discussions or negotiations with Fortrend regarding it. MAC did not remain a client of PwC although the Marshalls did
remain clients. PwC provided services with respect to
the preparation of the Marshalls’ Forms 1040, U.S. Individual Income Tax Return. PwC still needed to determine the net cash that the Marshalls would receive
from the MAC transaction so that PwC could compute
their estimated tax and prepare their Forms 1040.

App. 39
After PwC warned John about the proposed stock
sale, Fortrend learned of PwC’s concerns that the stock
sale proposed by the Essex letter of intent was similar to a listed transaction. Fortrend’s Mr. Kramer and
Mr. Bernstein of Midcoast telephoned Mr. Dempsey to
try to persuade him that it was not similar to a listed
transaction. The telephone call from Mr. Kramer and
Mr. Bernstein did not alleviate Mr. Dempsey’s concerns
about the proposed stock sale. In January 2003, MidCoast sent the Marshalls, PwC, and Schwabe letters
and promotional materials that represented that their
tax strategy was “not the same as, or substantially similar to, the tax strategy contained in Notice 2001-16.”
Carrying Out the Transaction
Utrecht-America Finance Co. (UAFC) was a Delaware company and subsidiary of Utrecht-America
Holdings, which was a U.S. subsidiary of Rabobank Nederland (Rabobank). Rabobank provided financing to
Fortrend to purchase corporations in transactions similar to the MAC transaction. Before Rabobank would
fund a loan to Fortrend, it required security interest
agreements in place securing the loan with the corporation’s assets to allow Fortrend’s use of the loan proceeds to acquire the corporation’s stock. Once Fortrend
had title to the corporation, the corporation’s cash
would be used to pay off the Rabobank loan. Rabobank
typically analyzed audited financials during its credit
check process. Rabobank did not conduct a credit
analysis if the corporation had sufficient cash to repay Rabobank’s loan to the buyer.

App. 40
On or about January 28, 2003, John executed a revised Essex letter of intent as the director of MAC (final Essex letter of intent). On January 30, 2003, Cruz
Alderete executed the final Essex letter of intent as the
president of Essex.4 The final Essex letter of intent reflected that the purchase price for the Marshalls’ MAC
stock was to be calculated as follows:
An amount equal to (i) four million three
hundred thousand dollars ($4,300,000) plus
(ii) (A) one hundred percent (100%) of the
Company’s cash at Closing minus (B) forty
percent (40%) of the tax liability of the Company as of the Closing based on the balance
sheet of the Company, dated October 21, 2002,
as amended.
The $4,300,000 amount in the final Essex letter of
intent represented a discounted value for MAC’s prepaid Federal and State taxes, which equaled $4,714,990.
Initially, Essex proposed to pay the Marshalls 50% of
MAC’s tax liability as a premium over MAC’s net asset
value. Mr. Hornecker was able to negotiate the percentage of MAC’s tax liability that would be paid as a premium to the Marshalls up to 60%. The purchase price
for the Marshalls’ MAC stock was calculated as follows:
Total tax liabilities
40% of total taxes
4

$15,896,215 ($2,670,273
+ $13,225,942)
$6,358,486 (premium)

It is unclear when or why Mr. Alderete replaced Mr. Leslie
as president of Essex.

App. 41
Cash at Rabobank

$19,912,952 ($26,271,438
– 6,358,486)
Credit for prepaid tax
$4,300,000
Purchase price
$24,212,952
The MAC redemption and stock sale were effected
by the closing of both the partial redemption agreement and the stock purchase agreement, which were
integrated agreements. Under the partial redemption
agreement the shareholders of MAC would receive assets worth $6,766,500, constituting all of MAC’s assets
other than MAC’s cash, the future litigation proceeds,
and its prepaid income tax, for approximately 18% of
MAC shares. The stock purchase agreement required
MAC to “not [be] engaged in any material business or
material business activity” and to have as its “sole assets” $26,271,438 in cash and the remaining US BOR
litigation. On or about January 30, 2003, the Marshalls
formed MA LLC, an Oregon limited liability company,
taxable as a partnership. MA LLC had four equal
members: John, Richard, Karen, and Patsy, with John
and Richard as the managers. MA LLC was formed to
put MAC’s land and equipment and the Pearl Gateway
Condo into an entity. Once MAC’s land, equipment,
and other noncash assets were held by MA LLC on
March 7, 2003, MAC’s only assets were the $26,271,438
in its Rabobank account No. 1345, its estimated tax
payments, and the remaining US BOR litigation claim.
The stock purchase agreement required MAC
to establish an account at Rabobank and deposit
$26,271,438 in cash into this Rabobank account as a

App. 42
condition to closing. On February 18, 2003, Ms. Dill
transmitted forms for a new Rabobank account for
MAC to Mr. Hornecker, which John executed on February 20, 2003.
At the insistence of Fortrend, MAC opened Rabobank account No. 1345 on February 20, 2003. On
March 3, 2003, MAC wired $80,259 and $25,982,847
into its new Rabobank account No. 1345. On March 4,
2003, MAC wired $208,332 into its Rabobank account
No. 1345. As of March 4, 2003, the balance in MAC’s
Rabobank account No. 1345 was $26,271,438. As of
March 4, 2003, all of MAC’s cash was on deposit in its
new Rabobank account No. 1345. On February 20,
2003, Essex opened Rabobank account No. 1336. On
March 6, 2003, Mr. Alderete executed Rabobank account forms for MAC’s Rabobank account No. 1345 as
the president of MAC.
Rabobank did not require Essex or MAC to submit
audited financials because MAC’s cash on deposit at
Rabobank would be sufficient to pay off Essex’s loan.
The loan to Essex was short term because MAC had
sufficient cash to pay Essex’s loan, MAC’s Rabobank
account No. 1345 was pledged to repay Essex’s loan,
and Rabobank would have a security interest in MAC’s
Rabobank account No. 1345. In a Rabobank “Credit Report dated February 7, 2003,” Chris Kortlandt, the vice
president of Rabobank’s Structured Finance Department in 2003, stated that the stock sale was referred
to Rabobank by Fortrend and that there would be a

App. 43
[p]ledge of the accounts (at Rabobank) of our
borrower, Essex Solutions, and its newly acquired subsidiary, Marshall [MAC]. Marshall
[MAC] will hold cash balances of $31mm [million] in an account at Rabobank (pledged to
us).
At closing, Marshall [MAC] guarantees Essex
Solutions obligations under the loan, which
guarantee will be secured by Marshall [MAC]
cash accounts held at Rabobank.
The credit report also stated that: (1) even though the
loan was to be provided up to 30 days, “it is expected to
be repaid within 2 business days”; (2) “[w]e will receive
irrevocable payment instructions to transfer the total
cash balance ($31 mm) from the * * * [MAC account]
to * * * [Essex’s account] held at Rabobank, which
funds will be used as repayment for our loan”; and
(3) “the loan will be cash collateralized.”
Rabobank’s loan to Essex was low risk for nonrepayment because it was cash collateralized by MAC’s
cash in Rabobank account No. 1345, MAC guaranteed
the loan, and Rabobank had a security interest in
MAC’s Rabobank account No. 1345 and Essex’s Rabobank account No. 1336.
Mr. Alderete, as president of Essex, executed a
promissory note in the amount of $30 million payable
to UAFC dated as of March 6, 2003 (promissory note).
The promissory note was explicit in stating that the
advanced funds were to be used to acquire the MAC
stock and that Essex’s loan would not be funded until
Essex and MAC had on deposit in their respective

App. 44
Rabobank accounts the principal amount of the loan
plus $1 million. The balances in MAC’s Rabobank account No. 1345 and Essex’s Rabobank account No.
1336 would at all times exceed the outstanding balance of Essex’s loan and the interest and fees due on
the loan.
A control agreement among Essex as the grantor,
UAFC, and Rabobank dated as of March 6, 2003, was
executed by Mr. Alderete, as president of Essex (Essex
control agreement). The Essex control agreement gave
UAFC control over all cash, instruments, and financial
assets, Essex’s Rabobank account No. 1336, and all security entitlements.
A guaranty by MAC, the guarantor, in favor of
UAFC dated as of March 6, 2003, was executed by
Mr. Alderete as president of MAC (MAC guaranty).
Pursuant to the MAC guaranty, MAC unconditionally
guaranteed the punctual payment of all of Essex’s obligations and liabilities to UAFC and granted UAFC
the right to offset MAC’s Rabobank account No. 1345
to satisfy Essex’s obligations and liabilities. Essex’s
loan from Rabobank was conditional upon the MAC
guaranty. A security and assignment agreement by
MAC as the guarantor in favor of UAFC dated as of
March 6, 2003, was executed by Mr. Alderete as president of MAC (MAC security agreement). Pursuant
to the terms of the MAC security agreement, MAC
granted UAFC a first priority security interest in
MAC’s Rabobank account No. 1345 to secure the obligations of MAC, under the MAC guaranty, to UAFC.

App. 45
A control agreement among MAC as the grantor,
UAFC, and Rabobank dated as of March 6, 2003, was
executed by Mr. Alderete as president of MAC (MAC
control agreement). The MAC control agreement gave
UAFC control over MAC’s Rabobank account No. 1345,
all cash, instruments, and financial assets contained,
and all security entitlements. Rabobank and UAFC required the MAC guaranty, the MAC security agreement, and the MAC control agreement to be executed
before Essex’s loan would be funded. The MAC guaranty, the MAC security agreement, and the MAC control agreement became effective simultaneously with
the closing of the stock sale.
Transaction
On March 7, 2003, pursuant to the partial redemption agreement, MAC redeemed 180 shares of
capital stock from each of the Marshalls in exchange
for $1,691,625 worth of MAC’s noncash tangible assets,
for a total of $6,766,500. MAC’s noncash tangible assets consisted of heavy equipment, shop equipment
and tools, office electronics, machinery, vehicles, trailers, leases, the 11 acres of land where MAC maintained
its office, and MAC’s interest in Pearl Condo, LLC. In
connection with the partial redemption, MAC conveyed its noncash tangible assets to MA LLC on March
7, 2003, at the direction of the MAC shareholders.
On March 7, 2003, pursuant to the future litigation proceeds agreement entered into by petitioners
and Essex, MAC transferred its rights to 80.35% of the

App. 46
Sheep Creek appeal proceeds and 100% of the Stillwater EAJA claim proceeds with a combined value of
$2,544,480 to the Marshalls. The Marshalls purportedly sold their remaining MAC stock to Essex. On
the same day, the stock sale closed and, pursuant to
the stock purchase agreement, the Marshalls assumed
MAC’s nontax liabilities, which consisted of the
$4,433,866 UBOC liability and the $500,000 Jochim
liability.
On March 7, 2003, Essex’s account No. 1336 at Rabobank was credited with $30 million, which represented a draw under the loan agreement with UAFC.
Immediately before the stock sale, Essex’s sole asset
was the $30 million in UAFC loan proceeds and its sole
liability was the $30 million UAFC loan payable. Pursuant to the stock purchase agreement, Essex wired
$24,410,000 from its Rabobank account No. 1336 to
MA LLC’s USBanCorp Piper Jaffray account No. 5091
at the direction of the Marshalls and wired $200,000
to Schwabe’s trust account. Pursuant to the stock purchase agreement, the Marshalls conveyed their outstanding shares of MAC to Essex.
On March 7, 2003, funds of $25 million were transferred from MAC’s Rabobank account No. 1345 to Essex’s Rabobank account No. 1336. Essex paid MAC a
$150,000 guaranty fee. At the end of the day on March
7, 2003, after taking into account MAC’s transfer of
$25 million from its Rabobank account No. 1345 to Essex’s Rabobank account No. 1336 and MAC’s receipt of
the $150,000 guaranty fee from Essex, the balance in
MAC’s Rabobank account No. 1345 was $1,421,438.01.

App. 47
On March 7, 2003, Essex’s Rabobank account No. 1336
was debited in the amount of $30 million to repay the
$30 million loan due to UAFC. Essex’s loan was drawn
down and repaid on the same day. Essex paid a
$100,000 upfront fee to UAFC.
At the end of the day on March 7, 2003, after taking
into account Essex’s repayment of its loan, payment of
the $150,000 guaranty fee to MAC, and payment of the
$100,000 upfront fee to UAFC, the balance in Essex’s
Rabobank account No. 1336 was $139,600. On March
7, 2003, Schwabe received notification from UAFC that
the Essex loan had been repaid and Schwabe returned
the $200,000 to Essex on March 7, 2003. On March 13,
2003, MA LLC transferred funds of $10,705,173 from
its USBanCorp Piper Jaffray account No. 5091 to Richard and Patsy’s joint USBanCorp Piper Jaffray account No. 7198.
MA LLC also transferred funds of $10,705,173
from its USBanCorp Piper Jaffray account No. 5091 to
John and Karen’s joint USBanCorp Piper Jaffray account No. 5089.
Before the MAC transaction, MAC had $40,650,877
in assets and $20,830,081 in liabilities and the net
asset value of the MAC stock was $19,820,796. At
the time the Marshalls assumed the UBOC liability
and the Jochim liability, MAC’s remaining liabilities
consisted of Federal and State income tax liabilities
totaling $15,896,215 for its FYE March 31, 2003. The
Marshalls received $24,410,400 as the purchase price
for their MAC stock.

App. 48
Postclosing Activities
Pursuant to the stock purchase agreement, Essex
was required to change the name of MAC. The Marshalls retained the name of MAC because John intended to stay in the construction business. MAC made
the following payments on March 10, 2003: $50,000 to
Baguette Holdings, LCC; $50,000 to Bittner & Co.,
LLP; and $37,500 to Joseph Valentino. On March 13,
2003, Essex merged into MAC with MAC surviving
and changing its name to First Associated Contractor,
Inc.
On April 13, 2003, MAC filed its Form 1120, U.S.
Corporation Income Tax Return, for its FYE March 31,
2003. MAC claimed a bad debt deduction of $39,772,396
on the 2003 return to offset its taxable income from the
Stillwater litigation award. The bad debt loss deduction claimed by MAC was based upon U.S. Treasury
bills. On March 13, 2003, Willow purportedly contributed 140,000 U.S. Treasury bills with a face value of
$140,000 and $100,000 cash to MAC in a section 351
transaction. Willow claimed that it had a $53,333,288
tax basis in the U.S. Treasury bills.
MAC’s 2003 return reflected a refund due of
$3,825,000. MAC received a refund of $3,825,000 for
its FYE March 31, 2003, from the IRS on May 29,
2003. MAC used the $3,825,000 Federal tax refund to
make the following payments: $840,000 to Fortrend;
$510,000 to Willow; $306,000 to Peachtree; $241,000
to Irgang & Co.; $200,000 to Manatt, Phelps, Phillips; $110,743 to Jeffer, Mangels, Butler & Marmaro;

App. 49
$100,000 to Susan Smith; $30,000 to Oceanus Solutions, LLC; and $7,846 to TC Capital Management,
LLC.
MAC administratively dissolved on June 6, 2003,
pursuant to Or. Rev. Stat. sec. 63.647, was reinstated
on September 12, 2003, and then was administratively
dissolved on March 20, 2009. MAC is no longer in existence under Oregon law.
The Marshalls’ Protective Disclosure
On October 15, 2004, Richard and Patsy filed their
Form 1040 for taxable year 2003, which included Form
8886, Reportable Transaction Disclosure Statement,
for the MAC transaction. On October 15, 2004, John
and Karen filed their Form 1040 for taxable year 2003,
which included Form 8886 for the MAC transaction.
The MAC transaction was registered with the IRS as
a tax shelter. Richard and Patsy attached Form 8271,
Investor Reporting of Tax Shelter Registration Number, for the MAC transaction to their Form 1040 for
taxable year 2004.
Notice of Deficiency to MAC
The IRS disallowed MAC’s claimed bad debt deduction of $39,772,396 because MAC could not support
or substantiate its basis in the purported bad debt,
among other reasons. On February 19, 2009, respondent timely mailed a notice of deficiency to MAC for
FYE March 31, 2003, 2004, and 2005. In the notice, the

App. 50
IRS determined a gross valuation misstatement penalty against MAC under section 6662(h), or alternatively a substantial understatement penalty under
section 6662(a) and (b)(2), for FYE March 31, 2003.
Neither MAC nor anyone acting on its behalf filed
a petition in this Court. On June 24, 2009, the IRS
made assessments against MAC for FYE March 31,
2003, for income tax of $15,482,046, accuracy-related
penalties of $6,192,818, and interest of $9,592,446.
On October 31, 2009, collection of MAC’s liability
was assigned to a field revenue officer. Respondent’s
revenue agent conducted database searches for MAC’s
assets in Oregon, Nevada, and California, filed notices
of Federal tax liens on MAC’s assets in Nevada, and
issued levies to three banks where MAC maintained
accounts.
Notices of Transferee Liability to Petitioners
On August 26, 2011, after determining that MAC
had no assets from which respondent could collect, respondent sent a notice of liability to Richard in which
it was determined that he was liable as a transferee for
$13,896,825 of the tax liability of MAC for its FYE
March 31, 2003, plus interest. On October 26, 2011, respondent sent notices of liability to John, Karen, and
Patsy, respectively, in which it was determined that
each was liable as a transferee for $13,896,825 of the
tax liability of MAC for its FYE March 31, 2003, plus
interest. On October 26, 2011, respondent sent a notice
of liability to MA LLC, in which it was determined that

App. 51
MA LLC was liable as a transferee and as a transferee
of a transferee for $6,776,500 of the tax liability of
MAC for its FYE March 31, 2003, plus interest. In response to the notices, Richard and Patsy filed a timely
petition on November 28, 2011, MA LLC filed a timely
petition on December 15, 2011, and John and Karen
filed a timely petition on December 16, 2011.
OPINION
I.

Legal Standard

Section 6901(a)(1) is a procedural statute authorizing the assessment of transferee liability in the same
manner and subject to the same provisions and limitations as in the case of the tax with respect to which the
transferee liability was incurred. Section 6901(a) does
not create or define a substantive liability but merely
provides the Commissioner a remedy for enforcing and
collecting from the transferee of property the transferor’s existing liability. Coca-Cola Bottling Co. v. Commissioner, 334 F.2d 875, 877 (9th Cir. 1964), aff ’g 37
T.C. 1006 (1962); Mysse v. Commissioner, 57 T.C. 680,
700-701 (1972).
Once the transferor’s own tax liability is established, the Commissioner may assess that liability
against a transferee under section 6901 only if two distinct requirements are met. First, the transferee must
be subject to liability under applicable State law, which
includes State equity principles. Second, under principles of Federal tax law, that person must be a “transferee” within the meaning of section 6901. See Salus

App. 52
Mundi Found. v. Commissioner, 776 F.3d 1010, 10171019 (9th Cir. 2014), rev’g and remanding T.C. Memo.
2012-61; Diebold Found., Inc. v. Commissioner, 736
F.3d 172, 183-184 (2d Cir. 2013), vacating and remanding Salus Mundi Found. v. Commissioner, T.C. Memo.
2012-61; Starnes v. Commissioner, 680 F.3d 417, 427
(4th Cir. 2012), aff ’g T.C. Memo. 2011-63; Swords Trust
v. Commissioner, 142 T.C. 317, 336 (2014).
The Commissioner bears the burden of proving
that a person is liable as a transferee. Sec. 6902(a);
Rule 142(d). The Commissioner does not have the
burden, however, “to show that the taxpayer was liable
for the tax.” Sec. 6902(a). Therefore, petitioners have
the burden of proving that MAC is not liable for
$21,674,864 of tax and penalty. See Rule 142(a)(1), (d);
Welch v. Helvering, 290 U.S. 111, 115 (1933); see also
United States v. Williams, 514 U.S. 527, 539 (1995)
(noting that “the Code treats the transferee as the taxpayer” for this purpose); L.V. Castle Inv. Grp., Inc. v.
Commissioner, 465 F.3d 1243, 1248 (11th Cir. 2006).
We must determine whether respondent has shown
that petitioners are liable as transferees.
II.

Petitioners’ Transferee Status Under Oregon
Uniform Fraudulent Transfer Act

We apply Oregon State law to determine whether
petitioners are liable, as transferees, for the unpaid
tax of MAC since the transaction took place in Oregon.
See Commissioner v. Stern, 357 U.S. 39, 45 (1958). Oregon has adopted the Uniform Fraudulent Transfer

App. 53
Act (UFTA), codified at chapter 95 of the Oregon
Statutes. See Or. Rev. Stat. secs. 95.200 to 95.310
(2015). The Oregon Uniform Fraudulent Transfer Act
(OUFTA) broadly defines “transfer” as “every mode,
direct or indirect, absolute or conditional, voluntary
or involuntary, of disposing of or parting with an asset
or an interest in an asset, and includes a payment
of money, a release, a lease and the creation of a lien
or other encumbrance.” Id. sec. 95.200(12). Where a
debtor transfers property to a transferee and thereby
avoids creditor claims, OUFTA provides creditors with
certain remedies against the transferee. See id. sec.
95.260.
Under Oregon common law, the creditor must
prove a fraudulent transfer by a preponderance of the
evidence under the OUFTA. Norris v. R&T Mfg., LLC,
338 P.3d 150 (Or. Ct. App. 2014).
A. Constructive Fraud
Respondent’s arguments under OUFTA are predicated on the assumption that the series of transfers
among MAC, Essex, and Fortrend should be collapsed
and treated as if MAC had sold its assets and then
made liquidating distributions to the shareholders. If
the transfers are collapsed accordingly, then MAC will
have transferred substantially all of its assets to petitioners and received less than reasonably equivalent
value. If the preceding is found, it follows that petitioners will be liable as transferees of MAC’s assets under
Or. Rev. Stat. sec. 95.240(1) as further explained below.

App. 54
Alternatively, respondent argues that MA LLC is liable
as a transferee of the assets transferred in the partial
redemption under OUFTA’s constructive fraud provisions.
1. Collapsing the Transaction
Respondent contends that the transfers among
MAC, Essex, and petitioners should be collapsed and
recharacterized under Oregon law as a redemption of
the Marshalls’ MAC shares, with the Marshalls receiving a $31,339,897 liquidating distribution in exchange
for their shares. Oregon courts have not addressed this
type of transaction; however, courts in jurisdictions
with fraudulent transfer provisions similar to Oregon’s
have “collapsed” transactions if the ultimate transferee
had constructive knowledge that the debtor’s debts
would not be paid. See Salus Mundi Found. v. Commissioner, 776 F.3d 1010; Diebold Found., Inc. v. Commissioner, 736 F.3d 172; Starnes v. Commissioner, 680 F.3d
417.
In Salus Mundi Found. the Court of Appeals for
the Ninth Circuit addressed the application of New
York’s fraudulent transfer provisions to a transaction
similar to the transaction in these cases. It concluded
that if constructive knowledge of the fraudulent scheme
could be shown from the conduct of the final transferees, multiple transfers could be collapsed under State
law. Salus Mundi Found. v. Commissioner, 776 F.3d at
1020. In Diebold Found., Inc. v. Commissioner, 736 F.3d
at 186, the Court of Appeals for the Second Circuit

App. 55
addressed the application of the New York UFTA to the
same transaction at issue in Salus Mundi Found. and
held that multiparty transactions can be collapsed
where the debtor’s property is “reconveyed * * * for less
than fair consideration” and the ultimate transferee
had “constructive knowledge of the entire scheme.”
In Starnes, the Court of Appeals for the Fourth
Circuit addressed the application of North Carolina’s
fraudulent transfer provisions to another transaction
similar to the transaction at issue in these cases and
ruled that multiple transfers could be collapsed if the
ultimate transferee had constructive knowledge that
the debtor’s tax liabilities would not be paid. If the ultimate transferees “were on inquiry notice * * * and
failed to make reasonably diligent inquiry, they are
charged with the knowledge they would have acquired
had they undertaken the reasonably diligent inquiry
required by the known circumstances.” Starnes v. Commissioner, 680 F.3d at 434.
In Tricarichi v. Commissioner, T.C. Memo. 2015201, we noted that the Ohio Supreme Court did not
have a case addressing this precise issue. We relied on
the previously discussed cases when applying Ohio’s
UFTA because we concluded that the Ohio Supreme
Court would find them persuasive as Ohio’s UFTA
tracks the uniform law almost verbatim and the fraudulent transfer provisions at issue in these cases also
mirrored the uniform law or were materially similar
to it. Id. at *37-*38. We conclude that the Oregon Supreme Court would also find the previously cited cases
persuasive and would follow these decisions if faced

App. 56
with this type of transaction as Oregon’s UFTA closely
resembles Ohio’s UFTA. If petitioners had constructive
knowledge that MAC’s tax liability would not be paid,
the transfers at issue may be collapsed. Finding that a
person had constructive knowledge does not require
finding that he had actual knowledge of the plan’s minute details. It is sufficient if, under the totality of the
surrounding circumstances, he “should have known”
about the tax-avoidance scheme. HBE Leasing Corp. v.
Frank, 48 F.3d 623, 636 (2d Cir. 1995).
Constructive knowledge also includes “inquiry
knowledge.” Constructive knowledge may be found
where the initial transferee became aware of circumstances that should have led to further inquiry into the
circumstances of the transaction, but no inquiry was
made. Id. Some cases define constructive knowledge as
the knowledge that ordinary diligence would have elicited, while others require more active avoidance of the
truth. Diebold Found., Inc. v. Commissioner, 736 F.3d
at 187. We need not decide which of these formulations
is appropriate because petitioners had “constructive
knowledge” under either standard.
Our analysis focuses on what John knew because
John assumed the responsibility of representing the
Marshalls. In determining what the transferees knew,
we have to focus on what they were advised and what
they themselves appreciated. See id. at 188-189. The
Marshalls, Schwabe, and PwC had constructive knowledge of the entire scheme. John knew that Essex was
interested in buying MAC only for its tax liability; that
Essex intended to use high-basis low-value assets to

App. 57
offset MAC’s income; that Essex intended to obtain a
refund of MAC’s prepaid taxes, a plan he was leery
about; and that Essex was splitting MAC’s avoided
taxes with the Marshalls.
PwC and Schwabe had a sophisticated understanding of the entire scheme. Notably, before the MAC
transaction closed, each of the Marshalls was warned
by Schwabe of the risks of transferee liability and John
was warned by PwC that the stock sale was similar to
a listed transaction and was advised by PwC not to
engage in the stock sale. Petitioners knew that the
Stillwater litigation award would be considered income to MAC and be subject to corporate income tax
for 2003. This knowledge motivated petitioners to enter into a transaction to mitigate this tax liability.
Further, MidCoast and Fortrend promotional material referenced Notice 2001-16, 2001-1 C.B. 730.5
PwC told John that the proposed stock sale was similar
to a listed transaction.6 Given this reference by Fortrend and Midcoast and especially PwC’s warning to
John, the Marshalls and their Schwabe advisers were
or should have been on heightened alert for other red
5

Notice 2001-16, 2001-1 C.B. 730, indicated that the IRS
may challenge transactions in which the assets of a corporation
are sold following the purported sale of the corporation’s stock to
an intermediary and that these and substantially similar transactions are designated “listed transactions” for purposes of sec.
1.6011-4T(b)(2), Temporary Income Tax Regs., 65 Fed. Reg. 11207
(Mar. 2, 2000), and sec. 301.6111-2T, Temporary Proced. & Admin. Regs., 65 Fed. Reg. 11218 (Mar. 2, 2002).
6
John disputes what PwC actually told him. However, it was
clear from the record that PwC and John discussed this.

App. 58
flags. That the Marshalls were aware of Notice 200116, supra, is evidenced by the protective disclosure attached to their Forms 1040 that referenced Notice
2001-16, supra, and their signatures on their Forms
1040.
The Marshalls recognized the large tax liability
arising from the Stillwater litigation award and entered into a series of transfers to minimize the liability.
John and the Marshalls’ advisers are analogous to the
advisers in Diebold Found., Inc. and Richard, Patsy,
and Karen are akin to the shareholders in that case.
The Court of Appeals for the Second Circuit in Diebold
Found., Inc. found that if the advisers knew or should
have known then the transferee is deemed to have had
the same knowledge and had a duty to inquire. See
Salus Mundi Found. v. Commissioner, 776 F.3d at
1019-1020; Diebold Found., Inc. v. Commissioner, 736
F.3d at 188-190. The Marshalls had a duty to inquire,
and they were advised that there was a significant risk
of transferee liability. Cf. Slone v. Commissioner, T.C.
Memo. 2016-115, at *14-*17 (distinguishable on factual grounds) (“Petitioners and their advisers had no
reason to believe that Fortrend’s strategies were other
than legitimate tax planning methods.”). Accordingly,
petitioners are transferees of MAC, as MAC sold its
assets and MA LLC received noncash assets and the
Marshalls received liquidating distributions in exchange for their shares.

App. 59
B. Petitioners’ Liability as Transferees Under
Oregon Law
Or. Rev. Stat. sec. 95.240(1) establishes that a
transfer is fraudulent with respect to a creditor where:
(1) the creditor’s claim arose before the transfer; (2) the
transferor did not receive “a reasonably equivalent
value in exchange for the transfer”; and (3) the transferor was insolvent at the time of the transfer or became insolvent as a result of the transfer. Petitioners
repeatedly argue that they cannot be found liable as
transferees because they acted in good faith. An intent
requirement is absent from Or. Rev. Stat. sec. 95.240,
and the Or. Rev. Stat. sec. 95.270(1) good faith defense
does not apply to Or. Rev. Stat. sec. 95.240. Nor can petitioners claim the good-faith defense to reduce the
amount of the liability under Or. Rev. Stat. sec.
95.270(5) as we have found the Marshalls to have
had at least constructive knowledge. Further, we find
that the three elements of Or. Rev. Stat. sec. 95.240(1)
are met and that petitioners are liable as transferees
of MAC under Oregon law.
1. Claim
“Claim” is defined expansively as a “right to payment.” Id. sec. 95.200(3). A right to payment constitutes a claim regardless of whether it is “reduced to
judgment, liquidated, unliquidated, fixed, contingent,
matured, unmatured, disputed, undisputed, legal, equitable, secured, or unsecured.” Id. A “creditor” is any
person who has a “claim”. Id. sec. 95.200(4). Given
this broad definition, transfers are fraudulent as to

App. 60
creditors whose claims have not been finally determined, and even as to creditors whose claims are not
yet due. See Zahra Spiritual Tr. v. United States, 910
F.2d 240, 248 (5th Cir.1990). Because “unmatured tax
liabilities are taken into account in determining a
debtor’s solvency, they are ‘claims’ and should be
treated as such under the expansive definition of the
term ‘claim’ ” in the UFTA. Stuart v. Commissioner, 144
T.C. 235, 258-259 (2015).
Petitioners do not dispute that there was a claim.
MAC received the Stillwater litigation award in May
2002 and additional interest payments in August and
October of the same year, generating a Federal tax liability. The transfer of MAC’s assets to petitioners occurred on March 7, 2003. Accordingly, respondent had
a claim against MAC before the transfer occurred.
2. Reasonably Equivalent Value
The second factor of Or. Rev. Stat. sec. 95.240(1) is
whether the transferor received reasonably equivalent
value in exchange for the transfer, which is a question
of fact. See Shockley v. Commissioner, T.C. Memo. 2015113. Once the transaction is collapsed, the timing of
the transfers is irrelevant and we must determine
whether MAC’s transfers of assets to petitioners were
for reasonably equivalent value.

App. 61
Petitioners received over $33.7 million7 in exchange for their stock and the assumption of the
UBOC liability and the Jochim liability, worth a total
of $4.9 million. Before the partial redemption and sale
of the MAC stock, the net asset value of petitioners’
stock was about $19.8 million8 and petitioners received
approximately $28.8 million9 in exchange for their
shares. Petitioners received approximately $9 million
in consideration in excess of the value of their MAC
stock. Thus, MAC did not receive reasonably equivalent value in exchange for the proceeds from the sale
of its assets.
3. Insolvency
The third factor of Or. Rev. Stat. sec. 95.240(1) is
whether the transferor was insolvent or became insolvent as a result of the transfer. A debtor is insolvent
under OUFTA “if, at a fair valuation, the sum of * * *
[its] debts is greater than all of * * * [its] assets.” Id.
sec. 95.210(1). Solvency is measured at the time of the
transfer. Id. sec. 95.240(1).
Petitioners’ argument that MAC was solvent at
the time of the partial redemption because it still
had over $26 million cash in its bank account is
7

Cash of $24,410,400, noncash assets of $6,776,500, and future litigation proceeds rights worth $2,544,480
8
Assets of $40.6 million less $20.8 million in the UBOC and
Jochim liabilities and taxes.
9
The total of $33.7 million received less the liabilities of $4.9
million assumed.

App. 62
unpersuasive. The precise timing of the transfers is immaterial since we collapsed the transaction under
OUFTA and solvency must be judged as MAC transferred assets to petitioners.
After MAC’S transfer of $25 million to petitioners
via Essex, MAC was left with over $15 million in State
and Federal tax liabilities and $6.8 million in assets,
consisting mostly of estimated tax deposits. Thus,
MAC became insolvent as a result of the MAC transaction.
C. Petitioners’ Liability for Penalties Under Oregon Law
Petitioners argue that they are not liable for
accuracy-related penalties because the penalty was
not a “current liability” under OUFTA when the MAC
stock was sold to Essex but was incurred by the new
owners of MAC after the stock sale. Petitioners reliance on Stanko v. Commissioner, 209 F.3d 1082 (8th
Cir. 2000), rev’g T.C. Memo. 1996-530, for the proposition that penalties for negligent or intentional misconduct that occurred months after the transfer are not
existing at the time of the transfer is misplaced.
In Tricarichi v. Commissioner, T.C. Memo. 2015201, we found an argument similar to this unpersuasive. In that case we held that the UFTA’s expansive
definition of “claim” encompasses this type of penalty
regardless of whether the penalty existed at the time
of the transfer. Id. at *62. Further, we found the UFTA
applies to future and present creditors if the transfer

App. 63
was not for reasonably equivalent value and the debtor
“intended to incur, or believed or reasonably should
have believed that he would incur, debts beyond his
ability to pay as they became due” and the IRS was
a future creditor. Id. at *62-*63 (quoting Ohio Rev.
Code sec. 1336.04(A)(2)(b)); see Or. Rev. Stat. sec.
95.230(1)(b)(B).
Oregon’s and Ohio’s statutes are materially similar. Accordingly, for the reasons we stated in Tricarichi,
we find that petitioners are liable under Oregon law
for the penalties.
III. Federal Transferee Liability
For purposes of section 6901 the term “transferee”
includes, inter alia, donee, heir, legatee, devisee, distributee, and shareholder of a dissolved corporation.
See sec. 6901(h); sec. 301.6901-1(b), Proced. & Admin.
Regs. As stated previously, recent authority has treated
the inquiry as two separate prongs. See Slone v. Commissioner, 810 F.3d 599 (9th Cir. 2015), vacating and
remanding T.C. Memo. 2012-57; Salus Mundi, Found. v.
Commissioner, 776 F.3d at 1018-1019. Having found
petitioners liable under State law, we must now determine whether they are liable under Federal law.
The Court of Appeals for the Ninth Circuit recently held that a court must consider whether to disregard the form of a transaction by which the transfer
occurred when determining transferee status for Federal law purposes. See Slone v. Commissioner, 810 F.3d
at 605-606. In performing the inquiry, the court must

App. 64
focus “holistically on whether the transaction had any
practical economic effects other than the creation of income tax losses.” Id. at 606 (quoting Reddam v. Commissioner, 755 F.3d 1051, 1060 (9th Cir. 2014), aff ’g T.C.
Memo. 2012-106). The MAC transaction had no economic effects other than the creation of a loss for MAC.
The Marshalls recognized the income tax liability from
the litigation awards and entered into a series of transfers solely to evade their tax liability. For this reason
and the reasons discussed above, we disregard the
form of the MAC transaction and find that petitioners
are transferees within the meaning of section 6901.
IV.

Transferor Liability for Unpaid Tax

In arguing whether MAC actually owed the tax liability, petitioners rely on the form of the MAC transaction’s being respected. Petitioners bear the burden of
proof on this matter and offer no alternative arguments as to MAC’s tax liability. See sec. 6902(a); Rule
142(d). Petitioners point to nothing in the record that
shows that respondent incorrectly determined or
improperly assessed MAC’s tax liability for its FYE
March 31, 2003. As the MAC transaction was collapsed
and treated as a de facto liquidation to petitioners, we
conclude that MAC was liable for the unpaid tax for its
FYE March 31, 2003.
V.

Collection Efforts Against MAC

Petitioners argue that respondent must show that
he exhausted all reasonable efforts to collect the tax

App. 65
liability from the transferor before proceeding against
the transferees.
We must look to Oregon law to determine whether
respondent has an obligation to pursue all reasonable
collection efforts against a transferor before proceeding against a transferee. See Hagaman v. Commissioner,
100 T.C. 180, 183-184, (1993); Jefferies v. Commissioner,
T.C. Memo. 2010-172; Upchurch v. Commissioner, T.C.
Memo. 2010-169. Where “the transferor is hopelessly
insolvent, the creditor is not required to take useless
steps to collect from the transferor.” Zadorkin v. Commissioner, T.C. Memo. 1985-137, 49 T.C.M. (CCH) 1022,
1028 (1985).
We think respondent did pursue all reasonably
necessary collection efforts, and petitioners have not
shown that respondent’s efforts to collect against MAC
were not reasonably exhausted. MAC was left insolvent after the MAC transaction and was administratively dissolved in March 2009. Respondent’s revenue
agent conducted database searches for MAC’s assets in
Oregon, Nevada, and California, filed notices of Federal tax lien on MAC’s assets in Nevada, and issued
levies to three banks where MAC maintained accounts.
Nothing in the record states that MAC still exists, but
the record instead suggests that MAC was not a viable
entity.
If for the sake of argument, we presume that respondent did not take reasonable steps, the OUFTA
does not require a creditor to pursue all reasonable collection efforts against the transferor. See Or. Rev. Stat.

App. 66
secs. 95.20095.310. Therefore, respondent was not required to exhaust collection efforts against MAC, and
petitioners may be held liable.
Accordingly, we conclude that (1) petitioners are
liable under Oregon law for the full amount of MAC’s
2003 tax deficiency and penalty and (2) the IRS may
collect this liability from petitioners as “transferees”
pursuant to section 6901.
To reflect the foregoing,
Decisions will be entered under
Rule 155.

App. 67
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JOHN M. MARSHALL; KAREN No. 17-72955
M. MARSHALL, Transferees, Tax Ct. No. 28782-11
Petitioners-Appellants, ORDER
v.

(Filed Oct. 2, 2019)

COMMISSIONER OF
INTERNAL REVENUE,
Respondent-Appellee.
MARSHALL ASSOCIATED,
LLC, Transferee,

No. 17-72958
Tax Ct. No. 28661-11

Petitioner-Appellant,
v.
COMMISSIONER OF
INTERNAL REVENUE,
Respondent-Appellee.
ESTATE OF RICHARD L.
MARSHALL, DECEASED,
Patsy L. Marshall, Personal
Representative; PATSY L.
MARSHALL,
Petitioners-Appellants,
v.
COMMISSIONER OF
INTERNAL REVENUE,
Respondent-Appellee.

No. 17-72960
Tax Ct. No. 27241-11

App. 68
Before: TASHIMA, GRABER, and OWENS, Circuit Judges.
The panel has voted to deny the petition for panel
rehearing. Judges Graber and Owens voted to deny the
petition for rehearing en banc, and Judge Tashima so
recommends.
The full court has been advised of the suggestion
for rehearing en banc, and no judge has requested a
vote on whether to rehear the matter en banc. Fed. R.
App. P. 35.
The petition for panel rehearing and the petition
for rehearing en banc are therefore DENIED.

App. 69
26 U.S.C. § 6901.
(a)

Transferred assets

Method of collection

The amounts of the following liabilities shall, except as hereinafter in this section provided, be assessed,
paid, and collected in the same manner and subject to
the same provisions and limitations as in the case of
the taxes with respect to which the liabilities were incurred:
(1)

Income, estate, and gift taxes
(A)

Transferees

The liability, at law or in equity, of a
transferee of property –
(i) of a taxpayer in the case of a tax
imposed by subtitle A (relating to income
taxes),
(ii) of a decedent in the case of a tax
imposed by chapter 11 (relating to estate
taxes), or
(iii) of a donor in the case of a tax
imposed by chapter 12 (relating to gift
taxes),
in respect of the tax imposed by subtitle A or B.
(B)

Fiduciaries

The liability of a fiduciary under section
3713(b) of title 31, United States Code, in
respect of the payment of any tax described
in subparagraph (A) from the estate of the

App. 70
taxpayer, the decedent, or the donor, as the
case may be.
(2)

Other taxes

The liability, at law or in equity of a transferee
of property of any person liable in respect of any
tax imposed by this title (other than a tax imposed
by subtitle A or B), but only if such liability arises
on the liquidation of a partnership or corporation,
or on a reorganization within the meaning of section 368(a).
(b)

Liability

Any liability referred to in subsection (a) may be
either as to the amount of tax shown on a return or as
to any deficiency or underpayment of any tax.
(c)

Period of limitations

The period of limitations for assessment of any
such liability of a transferee or a fiduciary shall be as
follows:
(1)

Initial transferee

In the case of the liability of an initial transferee, within 1 year after the expiration of the
period of limitation for assessment against the
transferor;
(2)

Transferee of transferee

In the case of the liability of a transferee of a
transferee, within 1 year after the expiration of
the period of limitation for assessment against the
preceding transferee, but not more than 3 years

App. 71
after the expiration of the period of limitation for
assessment against the initial transferor;
except that if, before the expiration of the period of limitation for the assessment of the liability of the transferee, a court proceeding for the collection of the tax or
liability in respect thereof has been begun against the
initial transferor or the last preceding transferee, respectively, then the period of limitation for assessment
of the liability of the transferee shall expire 1 year after the return of execution in the court proceeding.
(3)

Fiduciary

In the case of the liability of a fiduciary, not
later than 1 year after the liability arises or not
later than the expiration of the period for collection of the tax in respect of which such liability
arises, whichever is the later.
(d)

Extension by agreement
(1)

Extension of time for assessment

If before the expiration of the time prescribed
in subsection (c) for the assessment of the liability,
the Secretary and the transferee or fiduciary have
both consented in writing to its assessment after
such time, the liability may be assessed at any
time prior to the expiration of the period agreed
upon. The period so agreed upon may be extended
by subsequent agreements in writing made before
the expiration of the period previously agreed
upon. For the purpose of determining the period of
limitation on credit or refund to the transferee or
fiduciary of overpayments of tax made by such
transferee or fiduciary or overpayments of tax

App. 72
made by the transferor of which the transferee or
fiduciary is legally entitled to credit or refund,
such agreement and any extension thereof shall be
deemed an agreement and extension thereof referred to in section 6511(c).
(2)

Extension of time for credit or refund

If the agreement is executed after the expiration of the period of limitation for assessment
against the taxpayer with reference to whom the
liability of such transferee or fiduciary arises, then
in applying the limitations under section 6511(c)
on the amount of the credit or refund, the periods
specified in section 6511(b)(2) shall be increased
by the period from the date of such expiration to
the date of the agreement.
(e)

Period for assessment against transferor

For purposes of this section, if any person is deceased, or is a corporation which has terminated its existence, the period of limitation for assessment against
such person shall be the period that would be in effect
had death or termination of existence not occurred.
(f ) Suspension of running of period of limitations
The running of the period of limitations upon the
assessment of the liability of a transferee or fiduciary
shall, after the mailing to the transferee or fiduciary of
the notice provided for in section 6212 (relating to income, estate, and gift taxes), be suspended for the period during which the Secretary is prohibited from
making the assessment in respect of the liability of the

App. 73
transferee or fiduciary (and in any event, if a proceeding in respect of the liability is placed on the docket of
the Tax Court, until the decision of the Tax Court becomes final), and for 60 days thereafter.
(g)

Address for notice of liability

In the absence of notice to the Secretary under section 6903 of the existence of a fiduciary relationship,
any notice of liability enforceable under this section required to be mailed to such person, shall, if mailed to
the person subject to the liability at his last known address, be sufficient for purposes of this title, even if
such person is deceased, or is under a legal disability,
or, in the case of a corporation, has terminated its existence.
(h)

Definition of transferee

As used in this section, the term “transferee” includes donee, heir, legatee, devisee, and distributee,
and with respect to estate taxes, also includes any person who, under section 6324(a)(2), is personally liable
for any part of such tax.
(i)

Extension of time
For extensions of time by reason of
armed service in a combat zone, see section
7508.

App. 74
26 U.S.C. § 6902. Provisions of special application to transferees
(a)

Burden of proof

In proceedings before the Tax Court the burden of
proof shall be upon the Secretary to show that a petitioner is liable as a transferee of property of a taxpayer,
but not to show that the taxpayer was liable for the tax.
(b)

Evidence

Upon application to the Tax Court, a transferee of
property of a taxpayer shall be entitled, under rules prescribed by the Tax Court, to a preliminary examination
of books, papers, documents, correspondence, and other
evidence of the taxpayer or a preceding transferee of the
taxpayer’s property, if the transferee making the application is a petitioner before the Tax Court for the redetermination of his liability in respect of the tax (including
interest, additional amounts, and additions to the tax
provided by law) imposed upon the taxpayer. Upon such
application, the Tax Court may require by subpoena, ordered by the Tax Court or any division thereof and
signed by a judge, the production of all such books, papers, documents, correspondence, and other evidence
within the United States the production of which, in the
opinion of the Tax Court or division thereof, is necessary
to enable the transferee to ascertain the liability of the
taxpayer or preceding transferee and will not result in
undue hardship to the taxpayer or preceding transferee. Such examination shall be had at such time and
place as may be designated in the subpoena.

App. 75
Or. Rev. Stat. § 95.200 Definitions for ORS 95.200
to 95.310.
As used in ORS 95.200 to 95.310:
(1)

“Affiliate” means any of the following:
(a) A person who directly or indirectly owns,
controls or holds with power to vote 20 or
more percent of the outstanding voting securities of the debtor, other than a person who
holds the securities:
(A) As a fiduciary or agent without sole
discretionary power to vote the securities;
or
(B) Solely to secure a debt, if the person
has not in fact exercised the power to
vote.
(b) A corporation, 20 or more percent of
whose outstanding voting securities are directly or indirectly owned, controlled or held
with power to vote by the debtor or by a person who directly or indirectly owns, controls
or holds with power to vote 20 or more percent
of the outstanding voting securities of the
debtor, other than a person who holds the securities:
(A) As a fiduciary or agent without sole
discretionary power to vote the securities;
or
(B) Solely to secure a debt, if the person
has not in fact exercised the power to
vote.

App. 76
(c) A person whose business is operated by
the debtor under a lease or other agreement,
or a person substantially all of whose assets
are controlled by the debtor.
(d) A person who operates the debtor’s business under a lease or other agreement or controls substantially all of the debtor’s assets.
(2) “Asset” means property of a debtor but does
not include:
(a) Property to the extent that it is encumbered by a valid lien;
(b) Property to the extent that it is generally
exempt under nonbankruptcy law; or
(c) An interest in property held in tenancy
by the entirety to the extent that it is not subject to process by a creditor holding a claim
against only one tenant.
(3) “Claim” means a right to payment, whether
or not the right is reduced to judgment, liquidated,
unliquidated, fixed, contingent, matured, unmatured, disputed, undisputed, legal, equitable, secured or unsecured.
(4) “Creditor” means a person who has a claim
against a debtor.
(5)

“Debt” means liability on a claim.

(6) “Debtor” means a person against whom a
creditor has a claim.

App. 77
(7)

An “insider” includes:
(a)

If the debtor is an individual:
(A) A relative of the debtor or of a general partner of the debtor;
(B) A partnership in which the debtor is
a general partner;
(C) A general partner in a partnership
described in subparagraph (B) of this paragraph; or
(D) A corporation of which the debtor is
a director, officer or person in control.

(b)

If the debtor is a corporation:
(A)

A director of the debtor;

(B)

An officer of the debtor;

(C)

A person in control of the debtor;

(D) A partnership in which the debtor is
a general partner;
(E) A general partner in a partnership
described in subparagraph (D) of this paragraph; or
(F) A relative of a general partner, director, officer or person in control of the
debtor.

App. 78
(c)

If the debtor is a partnership:
(A)

A general partner in the debtor;

(B) A relative of a general partner in a
debtor, of a general partner of a debtor, or
of a person in control of the debtor;
(C) Another partnership in which the
debtor is a general partner;
(D) A general partner in a partnership
described in subparagraph (C) of this paragraph; or
(E)

A person in control of the debtor.

(d) An affiliate or an insider of an affiliate as
if the affiliate were the debtor; and
(e)

A managing agent of the debtor.

(8) “Lien” means a charge against or an interest
in property to secure payment of a debt or performance of an obligation, including a security interest created by agreement, a judicial lien obtained
by legal or equitable process or proceedings, a common-law lien or a statutory lien.
(9) “Person” means an individual, partnership,
corporation, association, organization, government
or governmental subdivision or agency, business
trust or any other legal or commercial entity.
(10) “Property” means anything that may be the
subject of ownership.
(11) “Relative” means an individual related within
the third degree as determined by the common
law, a spouse, or an individual related to a spouse

App. 79
within the third degree as so determined, and includes an individual in an adoptive relationship
within the third degree.
(12) “Transfer” means every mode, direct or indirect, absolute or conditional, voluntary or involuntary, of disposing of or parting with an asset or an
interest in an asset, and includes a payment of
money, a release, a lease and the creation of a lien
or encumbrance.
(13) “Valid lien” means a lien that is effective
against the holder of a judicial lien subsequently
obtained by legal or equitable process or proceedings.

Or. Rev. Stat. § 95.210

Insolvency described.

(1) A debtor is insolvent if, at a fair valuation, the
sum of the debtor’s debts is greater than all of the
debtor’s assets.
(2) A debtor who is generally not paying debts of
the debtor as they become due is presumed to be
insolvent.
(3) A partnership is insolvent under subsection
(1) of this section if, at a fair valuation, the sum of
the partnership’s debts is greater than the aggregate of all of the partnership’s assets and the sum
of the excess of the value of each general partner’s
nonpartnership assets over the partner’s nonpartnership debts.

App. 80
(4) Assets under this section do not include property that has been transferred, concealed or removed with intent to hinder, delay, or defraud
creditors or that has been transferred in a manner
making the transfer voidable under ORS 95.200 to
95.310.
(5) Debts under this section do not include an obligation to the extent the obligation is secured by
a valid lien on property of the debtor not included
as an asset.

Or. Rev. Stat. § 95.220

Value described.

(1) Value is given for a transfer or an obligation
if in exchange for the transfer or obligation property is transferred or an antecedent debt is secured or satisfied, but value does not include an
unperformed promise made otherwise than in the
ordinary course of the promisor’s business to furnish support to the debtor or another person.
(2) For the purposes of ORS 95.230(1)(b) and
95.240, a person gives a reasonably equivalent
value if the person acquires an interest in the
debtor in an asset pursuant to a regularly conducted, noncollusive foreclosure sale or execution
of a power of sale for the acquisition or disposition of the interest of the debtor upon default
under a mortgage, deed of trust or security agreement.
(3) A transfer is made for present value if the
exchange between the debtor and the transferee is

App. 81
intended by them to be contemporaneous and is
in fact substantially contemporaneous.

Or. Rev. Stat. § 95.230 Transfers fraudulent as
to present and future creditors.
(1) A transfer made or obligation incurred by a
debtor is fraudulent as to a creditor, whether the
creditor’s claim arose before or after the transfer
was made or the obligation was incurred, if the
debtor made the transfer or incurred the obligation:
(a) With actual intent to hinder, delay, or defraud any creditor of the debtor; or
(b) Without receiving a reasonably equivalent value in exchange for the transfer or obligation, and the debtor:
(A) Was engaged or was about to engage
in a business or a transaction for which
the remaining assets of the debtor were
unreasonably small in relation to the
business or transaction; or
(B) Intended to incur, or believed or
reasonably should have believed that the
debtor would incur, debts beyond the
debtor’s ability to pay as they become due.
(2) In determining actual intent under subsection (1)(a) of this section, consideration may be
given, among other factors, to whether:
(a) The transfer or obligation was to an insider;

App. 82
(b) The debtor had retained possession or
control of the property transferred after the
transfer;
(c) The transfer or obligation was disclosed
or concealed;
(d) Before the transfer was made or obligation was incurred, the debtor was sued or
threatened with suit;
(e) The transfer was of substantially all the
debtor’s assets;
(f )

The debtor had absconded;

(g) The debtor had removed or concealed assets;
(h) The value of the consideration received
by the debtor was reasonably equivalent to the
value of the asset transferred or the amount
of the obligation incurred;
(i) The debtor was insolvent or became insolvent shortly after the transfer was made or
the obligation was incurred;
(j) The transfer had occurred shortly before
or shortly after a substantial debt was incurred; and
(k) The debtor had transferred the essential
assets of the business to a lienor who had
transferred the assets to an insider of the
debtor.

App. 83
Or. Rev. Stat. § 95.240
to present creditors.

Transfers fraudulent as

(1) A transfer made or obligation incurred by a
debtor is fraudulent as to a creditor whose claim
arose before the transfer was made or the obligation was incurred if the debtor made the transfer
or incurred the obligation without receiving a
reasonably equivalent value in exchange for the
transfer or obligation and the debtor was insolvent
at that time or the debtor becomes insolvent as a
result of the transfer or obligation.
(2) A transfer made by a debtor is fraudulent as
to a creditor whose claim arose before the transfer
was made if the transfer was made to an insider
for other than a present, reasonably equivalent
value, the debtor was insolvent at that time and
the insider had reasonable cause to believe that
the debtor was insolvent.

Or. Rev. Stat. § 95.250 When transfer is made or
obligation is incurred.
(1)

A transfer is made:
(a) With respect to an asset that is real property other than a fixture, but including the interest of a seller or purchaser under a contract
for the sale of the asset, when the transfer is
so far perfected that a good-faith purchaser of
the asset from the debtor against whom applicable law permits the transfer to be perfected
cannot acquire an interest in the asset that is
superior to the interest of the transferee; and

App. 84
(b) With respect to an asset that is not real
property or that is a fixture, when the transfer
is so far perfected that a creditor on a simple
contract cannot acquire a judicial lien otherwise than under ORS 95.200 to 95.310 that is
superior to the interest of the transferee.
(2) If applicable law permits the transfer to be
perfected as provided in subsection (1) of this section and the transfer is not so perfected before the
commencement of an action for relief under ORS
95.200 to 95.310, the transfer is made immediately before the commencement of the action.
(3) If applicable law does not permit the transfer
to be perfected as provided in subsection (1) of this
section, the transfer is made when it becomes effective between the debtor and the transferee.
(4) A transfer is not made until the debtor has
acquired rights in the asset transferred.
(5)

An obligation is incurred:
(a) If oral, when it becomes effective between the parties.
(b) If evidenced by a writing, when the writing executed by the obligor is delivered to or
for the benefit of the obligee.

Or. Rev. Stat. § 95.260

Creditor’s remedies.

(1) In any action for relief against a transfer or
obligation under ORS 95.200 to 95.310, a creditor,
subject to the limitations provided in ORS 95.270,
may obtain:

App. 85
(a) Avoidance of the transfer or obligation to
the extent necessary to satisfy the creditor’s
claim.
(b) An attachment or other provisional remedy against the asset transferred or other
property of the transferee in accordance with
the procedure prescribed by any applicable
provision of any other statute or the Oregon
Rules of Civil Procedure.
(c) Subject to applicable principles of equity
and in accordance with applicable rules of
civil procedure:
(A) An injunction against further disposition by the debtor or a transferee, or
both, of the asset transferred or of other
property;
(B) Appointment of a receiver to take
charge of the asset transferred or of other
property of the transferee; or
(C) Any other relief the circumstances
may require.
(2) If a creditor has obtained a judgment on a
claim against the debtor and if the court so orders,
the creditor may levy execution on the asset transferred or its proceeds.

Or. Rev. Stat. § 95.270 Transferee’s defenses, liability and protections.
(1) A transfer or obligation is not voidable under
ORS 95.230(1)(a) as against a person who took in

App. 86
good faith and for a reasonably equivalent value
or any subsequent transferee or obligee.
(2) Except as otherwise provided in this section,
to the extent a transfer is voidable in an action by
a creditor under ORS 95.260(1)(a), the creditor
may recover judgment for the value of the asset
transferred, as adjusted under subsection (3) of
this section, or the amount necessary to satisfy the
creditor’s claim, whichever is less. The judgment
may be entered against:
(a) The first transferee of the asset or the
person for whose benefit the transfer was
made; or
(b)

Any subsequent transferee.

(3) If the judgment under subsection (2) of this
section is based upon the value of the asset transferred, the judgment must be for an amount equal
to the value of the asset at the time of the transfer,
subject to adjustment as the equities may require.
(4) A creditor may not recover under subsection
(2)(b) of this section from a good-faith transferee
or obligee who took for value or from any subsequent transferee or obligee.
(5) Notwithstanding voidability of a transfer or
an obligation under ORS 95.200 to 95.310, a goodfaith transferee or obligee is entitled, to the extent
of the value given the debtor for the transfer or
obligation, to:
(a) A lien on or a right to retain any interest
in the asset transferred;

App. 87
(b)
or

Enforcement of any obligation incurred;

(c) A reduction in the amount of the liability
on the judgment.
(6)

A transfer is not voidable under ORS 95.240(2):
(a) To the extent the insider gave new value
to or for the benefit of the debtor after the
transfer was made unless the new value was
secured by an otherwise unavoidable lien;
(b) If made in the ordinary course of business or financial affairs of the debtor and the
insider; or
(c) If made pursuant to a good-faith effort to
rehabilitate the debtor and the transfer secured present value given for that purpose as
well as an antecedent debt of the debtor.

(7) A transfer is not voidable under ORS
95.230(1)(b) or 95.240 if the transfer results from:
(a) Termination of a lease upon default by the
debtor when the termination is pursuant to
the terms of the lease and applicable law; or
(b) Enforcement of a security interest in
compliance with ORS chapter 79.

App. 88
Or. Rev. Stat. § 95.280 Extinguishment of claim
for relief.
A claim for relief with respect to a fraudulent transfer
or obligation under ORS 95.200 to 95.310 is extinguished unless action is brought:
(1) Under ORS 95.230(1)(a) within four years after the transfer was made or the obligation was
incurred or, if later, within one year after the
transfer or obligation was or could reasonably
have been discovered by the claimant;
(2) Under ORS 95.230(1)(b) or 95.240(1), within
four years after the transfer was made or the obligation was incurred; or
(3) Under ORS 95.240(2), within one year after
the transfer was made or the obligation was incurred.

Or. Rev. Stat. § 95.290 General principles of law
and equity as supplement to ORS 95.200 to 95.310.
Unless displaced by the provisions of ORS 95.200 to
95.310, the principles of law and equity, including the
law merchant and the law relating to principal and
agent, estoppel, laches, fraud, misrepresentation, duress, coercion, mistake, insolvency or other validating
or invalidating cause, supplement its provisions.

App. 89
Or. Rev. Stat. § 95.300 Uniformity of application
and construction.
ORS 95.200 to 95.310 shall be applied and construed
to effectuate its general purpose to make uniform the
law with respect to the subject of ORS 95.200 to 95.310
among states enacting it.

Or. Rev. Stat. § 95.310.

Short title.

ORS 95.200 to 95.310 may be cited as the Uniform
Fraudulent Transfer Act.

